<html>
<title> - REORGANIZING AMERICA'S INTELLIGENCE COMMUNITY: A VIEW FROM THE INSIDE</title>
<body><pre>[Senate Hearing 108-755]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-755

 REORGANIZING AMERICA'S INTELLIGENCE COMMUNITY: A VIEW FROM THE INSIDE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 16, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
95-507                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
        Michael Stern, Deputy Staff Director for Investigations
                David Kass, Chief Investigative Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Kevin J. Landy, Minority Counsel
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     2
    Senator Roberts..............................................     4
    Senator Rockefeller..........................................     6
    Senator Voinovich............................................    31
    Senator Levin................................................    34
    Senator Coleman..............................................    37
    Senator Durbin...............................................    40
    Senator Carper...............................................    43
    Senator Dayton...............................................    46

                               WITNESSES
                        Monday, August 16, 2004

Hon. William H. Webster, Former Director, Federal Bureau of 
  Investigation, Former Director of Central Intelligence, Senior 
  Partner, Milbank, Tweed, Hadley and McCloy, LLP................     9
Hon. R. James Woolsey, Former Director of Central Intelligence, 
  Vice President, Booz Allen Hamilton............................    13
Hon. Stansfield Turner, Former Director of Central Intelligence, 
  Professor, School of Public Policy, University of Maryland.....    18

                     Alphabetical List of Witnesses

Turner, Hon. Stansfield:
    Testimony....................................................    18
Webster, Hon. William H.:
    Testimony....................................................     9
    Prepared statement...........................................    51
Woolsey, Hon. R. James:
    Testimony....................................................    13
    Prepared statement...........................................    62

                                APPENDIX

Robert M. Gates, Former Director of Central Intelligence, 
  prepared statement.............................................    73
Questions and Responses for Mr. Webster from:
    Senator Voinovich............................................    86
    Senator Levin................................................    89
    Senator Durbin...............................................    94
Questions and Responses for Mr. Woolsey from:
    Senator Voinovich............................................    97
    Senator Levin................................................   100
    Senator Durbin...............................................   106
Questions for Mr. Turner from: (Responses to these questions were 
  not received by press time.)
    Senator Voinovich............................................   110
    Senator Levin................................................   112
    Senator Durbin...............................................   116

 
 REORGANIZING AMERICA'S INTELLIGENCE COMMUNITY: A VIEW FROM THE INSIDE

                              ----------                              


                        MONDAY, AUGUST 16, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342 Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Voinovich, Coleman, 
Sununu, Levin, Durbin, Carper, and Dayton.
    Also present: Senators Roberts and Rockefeller

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. I want 
to welcome not only our witnesses today and the Members of the 
Governmental Affairs Committee who have rearranged their 
schedules to be here, which I very much appreciate in light of 
the urgency of our task, but I also want to recognize that we 
are joined today by the Chairman of the Senate Intelligence 
Committee, the distinguished Senator from Kansas, Senator 
Roberts. And that we expect shortly the Ranking Member of that 
committee, Senator Rockefeller, to also join us.
    I felt that since the Senate Intelligence Committee has so 
much expertise in this area, and we are hearing from three 
former Directors of the CIA, that it would be appropriate for 
the Chairman and the Ranking Member of that committee to join 
us today, and I am very pleased that they have done so, and we 
welcome you, Senator Roberts.
    Today, the Governmental Affairs Committee holds its third 
hearing on the recommendations of the 9/11 Commission calling 
for a restructuring of the Intelligence Community. At our last 
hearing, on August 3, we explored the National Counterterrorism 
Center proposal. The testimony that we heard from experienced 
intelligence officers and from key Commission staff will help 
us greatly on that component of our task.
    Today, we will focus upon the proposal for a National 
Intelligence Director. No other component of the Commission's 
recommendations has received as much comment and debate as the 
proposed National Intelligence Director. There is considerable, 
but by no means unanimous, support for the notion that putting 
in place a National Intelligence Director will help strengthen 
our intelligence system. There is a considerable range of 
opinion, however, about the details of that position, including 
how it should be structured, where the Director should work and 
what authority this individual should have.
    It is the task of this Committee to draft legislation that 
would ensure that the NIDs of today, and for years to come, 
have sufficient authority to do the job effectively, while at 
the same time being subject to the restraints necessary, the 
oversight and accountability, to keep the position within the 
bounds of our constitutional system of checks and balances. In 
other words, we want to create a position with real, not just 
symbolic authority, yet not impose just another layer of 
bureaucracy nor grant so much power that we open the door to 
abuse.
    The details that we must fill in are many, and we have 
generated vigorous debate, as they should. These are among the 
questions we will ask. What powers does this new position need 
to be effective against the threat we face today and the 
threats we will face in the future? What safeguards should be 
included to ensure the independence of the National 
Intelligence Director? For example, where should this new 
office be located? Should the NID serve a fixed term, as does 
the FBI Director or serve at the pleasure of the President? 
Should the Director have deputies that are responsible for 
leading intelligence efforts elsewhere in government, including 
some who would answer not only to the Director, but also to a 
cabinet secretary, the so-called double-hatting question? From 
where will this new office get the top-notch staff that it 
needs? And perhaps most important, precisely what authority 
should the NID have over the entire Intelligence Community in 
terms of budget, personnel, technology standards, and the 
allocation of resources.
    The expertise and the insight of our distinguished 
witnesses today will help us in the difficult challenge of 
answering these questions wisely. Our witness panel brings 
together three former Directors of Central Intelligence from 
three different administrations. Their service spanned nearly 
three decades and witnessed an incredible variety of issues. 
They will provide us with the perspective of those who have 
grappled with the challenges facing our Intelligence Community 
while serving at the highest level.
    In addition, former CIA Director Robert Gates has submitted 
a very thoughtful written statement since he is unable to be 
with us today.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gates appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    Chairman Collins. Judge Webster, Mr. Woolsey, Admiral 
Turner, we are very pleased that you have taken the time to be 
with us today, and we look forward to hearing your testimony 
shortly.
    I would now like to call on the Ranking Member, my partner 
in this endeavor, Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much, Madam Chairman. I 
join you in welcoming Senator Roberts and Senator Rockefeller 
to our Committee, and I thank the three witnesses today. It 
would not be stretching even Senatorial hyperbole to say that 
these are three wise men. They have served our country well and 
continue to do so in many capacities, and I say so, even 
knowing from advance texts, that they do not share exactly my 
reaction to all of the recommendations of the 9/11 Commission.
    The report of the 9/11 Commission represents an indictment 
of the status quo in our intelligence community and, in doing 
so, links the shortcomings the Commission has found directly to 
the horrific events of September 11. In my own reaction, I 
found the 9/11 Commission Report so convincing that I would 
say, not that my mind is totally made up, but that I would put 
the burden of proof on those who would argue with the major 
recommendations of the Commission.
    Madam Chairman, I thank you again for the pace that this 
Committee is setting in the consideration of the 9/11 
Commission Report. We operate in a time of crisis. The specific 
ongoing information that we not only receive in classified 
briefings, but that the public receives in news announcements 
about continuing terrorist threats just reminds about how 
urgent it is that we act. Now, of course, we do not want to act 
so quickly that we do something wrong, but the issues that the 
Commission has framed are clear, and they are not 
uncomplicated, but the sooner we face them and thrash them out 
and hear opposing points of view, the sooner we are going to be 
able to act wisely. And I think the pace that the Committee has 
set and now that other committees have set, and we are now 
joined by the leaders of the Intelligence Committee of the 
Senate, is a very hopeful sign.
    This hearing focuses on the National Intelligence Director. 
Chairman Kean, Vice Chairman Hamilton before us said that they 
felt that of the 41 recommendations of the Commission, three 
were paramount. One was to create the one we are talking about 
today, the NID; second was the creation of the National 
Counterterrorism Center; third is the congressional reform, 
reform of our oversight. So we are focused on one of the top 
three here today.
    In the President's announcement on this question a while 
back, it was not clear to me--in fact, it was too clear, and 
then in what Andy Card said afterward--that the President did 
not have in mind a strong National Intelligence Director, 
particularly with regard to budget authority.
    In statements made last week by National Security Adviser 
Rice, and in at least one of the newspapers that I read this 
morning by Commission Member John Lehman, who apparently has 
been speaking to the White House, there is some reason to 
believe that the White House may be prepared to clarify its 
position in the direction of a National Intelligence Director 
with stronger authority, particularly over the budget. If that 
is true, it is, in my opinion, a good development. I hope it is 
true, and I welcome it. But most of all, I look forward to a 
very open, informed, and beneficial exchange of ideas with 
these three witnesses who I thank, along with Bob Gates, for 
submitting a statement.
    Thank you very much.
    Chairman Collins. Thank you.
    Senator Roberts, we are very pleased to have you here with 
us today, and I would invite you to make any opening comments 
that you would like to make.

 OPENING STATEMENT OF SENATOR PAT ROBERTS, A U.S. SENATOR FROM 
                      THE STATE OF KANSAS

    Senator Roberts. I would be happy to, Madam Chairman, and 
thank you for the invitation, and thank you for having our 
three witnesses here. I wish to thank you all for your service 
to our country, for your dedication for taking time out of your 
very valuable schedule to come and testify before us on such an 
important matter. The Hon. R. James Woolsey has already 
testified before our committee earlier, and he gave excellent 
testimony.
    I want to thank also, Senator Lieberman, your Ranking 
Member, for the opportunity to participate in today's hearing. 
Senator Rockefeller and I have been very busy over the last 2 
weeks or 3 weeks with our 22 professional staff members to try 
to come up with something that makes sense. And, additionally, 
I want to thank you, Madam Chairman, for your leadership in 
this very crucial challenge and task as we work together to try 
to implement the goals of the 9/11 Commission.
    And I want to say a word about Senator Lieberman. It was 
Senator Coates, the former Senator from Indiana, and Senator 
Lieberman, who formed up an outfit, a subcommittee, if you 
will, under the Armed Services Committee, called the Emerging 
Threats and Capabilities Subcommittee.
    Now, not too many people know about that, but that 
subcommittee did warn, clear back in 1998 and 1999 of a tragedy 
very similar to what happened in regards to September 11. And 
it was the foresight in regards to Senator Lieberman that led 
to the formation of that subcommittee. He was a valuable member 
of that subcommittee, and I want to thank him for that, and I 
know with interest we have Senator Durbin, who is a very 
valuable Member of our Committee, and Senator Levin, who is 
also a Member of the Intelligence Committee, so we have some 
very good cross-referencing here in terms of advice and 
counsel.
    Let me begin by saying that Chairman Collins has invited 
the Senate Committee on Intelligence to provide input to this 
Committee's work, and we will provide, Madam Chairman, a draft 
bill, if you will, for your consideration as of this week. We 
are also working with the 9/11 Commission. In that respect, I 
am referring to Mr. Zelikow. We are working with the 
administration. Senator Lieberman indicated that the 
administration is moving in a direction that I think most 
Members of the Senate would appreciate and would think would be 
positive. In the doing of this, we are doing it in terms of 
advice, and counsel, and suggestions, hopefully worthy of your 
consideration. We are not sitting still, we meaning the 
Congress. I know of at least seven hearings that have been 
conducted, possibly eight, and thirteen more prior to the 
Congress starting back in September. And so we are taking this 
very seriously.
    That draft bill that we are working with that Senator 
Rockefeller and I are working on is guided by the 9/11 
Commission's Report, which obviously contains some very 
important recommendations. Translating those important ideas, 
some of which are long overdue, into legislative language, 
however, is very complicated. As they say, the devil is in the 
details.
    In addition to the 9/11 Commission's Report, and also the 
recommendations, the draft bill that will be provided to you is 
also the result of the discussion and debate over intelligence 
reform that has gone on over the last several decades. The 
products of that debate include the recent report of the Senate 
Committee on Intelligence's U.S. Intelligence Community's 
prewar assessments in regard to Iraq. Now, I do not think even 
the Members of the Committee who are here today that have the 
privilege of serving on the Senate Intelligence Committee could 
have ever predicted that despite our very strong feelings and 
our differences, that we would end up with a 17-0 vote in favor 
of a report that is 511 pages long, 22 of our professional 
staffers and an interview of over 240 panelists. And we made 
about nine major recommendations, and it was bipartisan. As I 
said, it was a 17-0 vote.
    Those recommendations cried out for reform, and they are 
commensurate with the 9/11 Commission's Report, and now we have 
turned that report over to Senator McCain, former Senator Robb 
and also Mr. Silberman for further action.
    It also includes the many legislative proposals such as 
Senator Feinstein's bill and the bill introduced by Jane Harman 
over on the House side and the many commissions and 
investigations and studies that have been convened over the 
years. I am talking about the Bremer Commission, the Gilmore 
Commission, the CSIS study and also the Hart-Rudman Commission.
    The draft bill that will be provided to this Committee does 
provide for a National Intelligence Director or what we now 
call the NID. That person would be empowered with the 
authorities to really lead the Intelligence Community, as 
proposed in the 9/11 Commission's recommendations. Those 
authorities include the ability to hire and fire, as well as 
the ability to exercise control over the budgets of those 
agencies. As Congress does move toward legislating the so-
called intelligence reform, guided by the recommendations of 
the 9/11 Commission Report, and many of the other various 
proposals for change, Senator Rockefeller and I will keep in 
mind that we should first do no harm and avoid, as best we can, 
the law of unintended consequences.
    Now, for example, one of the key issues to be resolved is 
how much control the NID should have over the Department of 
Defense intelligence estimates. There has been 10 or 11 
attempts, dating back to the 1940's, to allegedly reform the 
intelligence community. In each and every case where we bumped 
into a real problem or a hurdle we could not jump, it has been 
in regards to the jurisdiction of the Pentagon and the Defense 
Department. I am not trying to perjure them by any means. They 
have many fine programs, and they have programs that should not 
be damaged in any way.
    There are many good things about the way the Department of 
Defense does conduct its intelligence operations that we must 
ensure are not undermined by the reform process.
    I want to give you an example. Take, for example, a special 
forces team that is supported by a military intelligence 
analyst. If that team is operating on the field of battle in 
Iraq during Operation Iraqi Freedom, it seems very clear to me 
that the team's intelligence specialist is a tactical asset 
that needs to be controlled by the local military chain of 
command. And the NID or the National Intelligence Director 
probably does not want or need to become involved. But move 
that same team to Afghanistan, outside the no-man's land where 
Osama bin Laden is hiding, and I would argue the team's 
intelligence specialist then has become a strategic national 
asset that may require the support and the leadership of the 
NID.
    Now, that line between the tactical and the strategic 
military operations gets blurred more and more every day, and 
it complicates the job of trying to define the NID's 
authorities. I am confident that you will find, however, that 
the draft bill that we will provide to this Committee does 
contain some very innovative ways of addressing that problem.
    Sadly, many of the Intelligence Community problems 
described in the 9/11 Commission's Report are not unique. The 
Senate Intelligence Committee's report on prewar intelligence 
assessments in regard to Iraq also describes major problems in 
the Intelligence Community. The need for significant change is 
clear; that Congress should focus its efforts on fixing clearly 
identified problems in our Intelligence Community and not 
simply legislate change merely for the sake of change. As we 
consider reform of the Intelligence Community, I feel strongly 
we must also ensure that we institutionalize change as a 
continuous process in the Intelligence Community.
    I do not think we can make the mistake of rearranging the 
organizational chart to meet the current threat and simply stop 
there. Rather, we must leave in place a system that will 
continue to adapt to the new threats that we will face in our 
Nation. International terrorism is a serious threat to us and 
our allies, but I am confident it will not be the last threat 
that this Nation faces. Even today, we can see in the headlines 
and in the intelligence reports that Nations like Iran and like 
North Korea do continue to work very busily on their weapons of 
mass destruction programs.
    So I am hopeful that a National Intelligence Director will 
be able to focus more on running the entire Intelligence 
Community and thus will be able to spend more time ensuring 
that the Intelligence Community does continue to adapt to our 
future threats, otherwise it will fall again to Congress to 
conduct yet another attempt at reform.
    So I thank you, Madam Chairman, for the opportunity to 
speak. I apologize for the length of my statement, and I do 
want to thank my dear colleague and friend, Senator 
Rockefeller, for his help, his advice and his leadership. We 
both share the same goals. We have been very busy here the last 
2 or 3 weeks with our professional staffers, and we should have 
that legislative draft to you at least by Wednesday.
    Chairman Collins. Thank you.
    Senator Rockefeller, we are very happy to have you join us 
today, and I would call on you for any comments you might wish 
to make.

  OPENING STATEMENT OF SENATOR ROCKEFELLER IV, A U.S. SENATOR 
                FROM THE STATE OF WEST VIRGINIA

    Senator Rockefeller. Thank you, Chairman Collins and 
Ranking Member Lieberman. You are very nice to do this. You 
were given the authority of putting forward legislation, and as 
I explained to both of you in phone conversations we had, we 
want to be helpful and supportive. There is some cross-
jurisdictional matters with the Intelligence Committee which we 
have to take very seriously, but I am very happy that you are 
doing it. This is not a work of turf. This is a work of 
national necessity.
    I find myself in agreement with most of the recommendations 
of the Commission. Some I have some questions about. Some I 
think need to be explained a little bit further before I would 
``render a judgment,'' at least on my part.
    If the Congress and the President cannot reach a successful 
agreement on constructive reform this year, and I do not 
preclude a post-election session, we certainly will have failed 
the American people. It will take, I think, sort of the basic 
questions that we all face in Washington, but someone we all 
continue to tread along our separate ways, and that is what it 
is that makes it so difficult for the Federal bureaucracy and 
the U.S. Congress to, in fact, do what is in the national 
interests first and then think about what the effect is upon 
their particular committee or their particular agency second.
    It is kind of a basic civics lesson and one that we have 
never learned very well because, in a sense, it kind of defines 
who we are, it defines who they are, and when you compare that 
to the national, the fact that we are going to be dealing with 
this crisis on terrorism for the next 20 or 30 years or more, 
depending upon when we can get some kind of a message of calm 
and reconciliation out to the Islamic community, across the 
world, not just the Arab World, we really do have to take this 
and do it correctly.
    If we did this by the end of the year, and everybody wants 
to do that and I do, too, by the end of this particular 
session, if we can do that, great. I do not think any of us 
should be under the illusions that it would have stopped the 
long time and place planning on the part of al Qaeda to do what 
it did on September 11 or what it may yet do if one reads the 
intelligence and looks at the reports. But still that is not 
the question. Maybe it should be stated this way. What future 
failures could we avoid and how many lives could we save 
because we act relatively sooner and create a mind-set change 
in the Congress and in the bureaucracy, and particularly of 
course within our Intelligence Community? Nobody would disagree 
with the fact that we have a 57-year-old model. Its blueprints 
drawn up from the Cold War. It is not an ideal arrangement for 
attacking an enemy that does not wear a uniform and an enemy 
that exists outside the rule of international law, 
international obligations and an enemy which looks forward to 
slaughtering men, women, and children where they live and where 
they work and does so with a religious purpose, mixed in with a 
hateful purpose.
    So the threat to the changes to our country has obviously 
changed in the last decade. The intelligence community has 
evolved to be sure to meet that challenge, but the pace has 
been slow. And the question now is the pace has to be 
organizationally, and in terms of trained people, which takes a 
long time, 5 years to train an analyst, 10 years to train an 
analyst, 5 years to train a linguist, and we are talking, if we 
start now, some fairly long-term results in order to fight the 
global war on terrorism which, as I indicated, I think is with 
us for a long time.
    Now, the biggest impediment is that no single person--and 
Chairman Roberts and everybody else has pointed this out--no 
person has the responsibility and the budgetary and personnel 
authority and hands for managing the entire Intelligence 
Community. That is a very serious error--my point. The Director 
of Central Intelligence has this titular responsibility, but 
not the control of the budgetary strings.
    I asked George Tenet once, ``If you wanted, if you felt 
like you needed to direct the Intelligence Community, would 
you,'' and he said, ``No, I will only direct what I have budget 
authority over.'' And he said that publicly, and he said that 
privately, and I think that sums it up very well.
    As we know, it is the Secretary of Defense who controls the 
lion's share of the intelligence budget, and that is going to 
be the great battle around here, and it is one which is already 
joined, and again national interest versus committee interest 
versus institutional interest, all of these things I think come 
into play there.
    Where else in government or corporate America would you 
find such a split arrangement as we have now. It is more akin 
to a custody settlement between divorced parents than an 
effective management plan for a 15-agency multi-billion-entity 
called the intelligence community.
    The President's decision, as has been indicated by Senator 
Lieberman, to endorse the Commission recommendation to create a 
National Intelligence Director was a step in the right 
direction. His decision to deviate from the Commission's 
recommendation to give this Director real budget and personnel 
authority was a bigger step, in my mind, backwards. And now 
worrying about how to make it stronger is not convincing to me 
until I see a real switch and a real willingness to invest 
authority in the National Intelligence Director for budget and 
for personnel and the rest of it.
    So we are going to have to break some china around here, 
otherwise we will fail. We will fail. We will do little bits 
and pieces, and we will be like Congress has so often been. The 
American people need real reform. They want our intelligence 
system to be effectively managed, and for that person and those 
who serve under him or her to be accountable, which is a Carl 
Levin favorite. Accountability is a major factor that we are 
going to have to deal with. Reforming the Intelligence 
Community is about protecting American soil, American lives, 
but it also should not be about protecting the turf at the 
Pentagon or at any of the intelligence agencies. This is about 
what is best for America, regardless of the players of the 
agencies.
    I call upon the President to endorse this essential element 
of the 9/11 Commission's plans so we can get about the business 
of reaching agreement. Chairman Collins and Ranking Member 
Lieberman, I thank you.
    Chairman Collins. Thank you for your statement.
    It is now my pleasure to introduce my distinguished panel 
today, and I apologize for being distracted by the Chairman of 
the Intelligence Committee.
    Senator Lieberman. I have been having that experience with 
Senator Roberts for years now. [Laughter.]
    Chairman Collins. It is a new one for me.
    Senator Roberts. It is my job description.
    Chairman Collins. It is a great pleasure to introduce 
today's distinguished witnesses. In addition to each serving as 
Director of Central Intelligence, each of them has served our 
country with honor in such fields as the judiciary, law 
enforcement, diplomacy and the military. The views that they 
offer from the inside perspective, and from many different 
perspectives, will greatly assist this Committee.
    William Webster was Director of Central Intelligence from 
1987 to 1991, following 9 years as Director of the Federal 
Bureau of Investigation. His experience in heading both the CIA 
and the FBI gives him a unique perspective to help us answer 
many of the questions today. Earlier he served as a judge on 
the U.S. Court of Appeals for the Eighth Circuit. Judge Webster 
has received numerous awards for public service, including the 
Presidential Medal of Freedom, and we welcome you.
    James Woolsey has served under four Presidents, most 
recently as Director of Central Intelligence from 1993 to 1995. 
He also served as the Ambassador to the Negotiation on 
Conventional Armed Forces in Europe from 1989 to 1991, as a 
delegate to the U.S. Soviet Strategic Arms Reduction Talks from 
1983 to 1986, and as Under Secretary of the Navy from 1977 to 
1979. He has also been a Member of the National Commission on 
Terrorism and the Commission to Assess the ballistic missile 
threat to the United States.
    We welcome you, as well.
    Stansfield Turner was Director of Central Intelligence from 
1977 to 1981. He is a graduate of the U.S. Naval Academy and 
was promoted to Rear Admiral in 1970 and to the rank of Admiral 
in 1975, when he was appointed Commander-in-Chief of NATO's 
Southern flank. Admiral Turner has taught at Yale, at West 
Point, and at the University of Maryland Graduate School on 
Public Affairs.
    I want to thank each of you. You are very dedicated public 
servants who have given a great deal to your country. We look 
forward to hearing your testimony today as we fill in the 
details and, with your guidance, make the right decisions.
    Judge Webster, we will start with you and your statement.

   TESTIMONY OF HON. WILLIAM H. WEBSTER,\1\ FORMER DIRECTOR, 
  FEDERAL BUREAU OF INVESTIGATION; FORMER DIRECTOR OF CENTRAL 
  INTELLIGENCE; AND SENIOR PARTNER, MILBANK, TWEED, HADLEY & 
                          McCLOY, LLP

    Judge Webster. Thank you, Senator Collins, Senator 
Lieberman and Members of the Committee, and also Chairman 
Roberts and Vice Chairman Rockefeller.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Webster appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Thank you for the privilege of appearing before you this 
morning to discuss some very important subjects. As I listened 
to the introductory remarks from your colleagues and from you, 
Madam Chairman, I was reminded of reading over the weekend from 
the extensive writings of Professor Darling, who recorded the 
first 5 or 6 years of Central Intelligence as an official 
document, and you will perhaps not be surprised to know that 
many of the issues that you raised this morning were raised at 
the time President Truman had to make his ultimate decision on 
the balancing act between intelligence and the other 
departments of the government, but we do of course live in a 
different world today.
    Following an extensively documented and detailed narrative 
of the events leading up to September 11, 2001, the Commission 
concluded that coordination, amalgamation, and synthesis of 
intelligence collected by various components of the 
Intelligence Community were too loose, and in consequence, the 
dots were not connected in a way that the 9/11 plot could have 
been uncovered and prevented. The Commission addressed a new 
structure intended to reduce the likelihood of another 
catastrophic attack against the United States and its citizens.
    In my view, some of the omissions and errors in conclusions 
were attributable to human mistakes and misjudgments. Others 
were attributable in part to constraints, both legislative and 
administrative, that governed the interagency relationships in 
the period following the Church and Pike Committee Reports to 
the 2001 Patriot Act revisions on sharing intelligence. Various 
proposals for managing ``need to share'' and preserving ``need 
to know'' had to address the almost byzantine system of 
intelligence control that evolved during that three decade 
period.
    I liken the current status of the Director of Central 
Intelligence to that of den chief in terms of his ability to 
control resources and compel effective teamwork throughout the 
15 agencies spread throughout the departments of our 
government. It is remarkable what has been accomplished by 
consensus building, friendly cajoling and a patriotic effort 
among so many agencies to make it work. But this is not enough 
to deal in a timely way with the complexities of the world in 
which we find ourselves.
    There is today a strong consensus that the authority of the 
Intelligence Community leader must be increased to do the job 
for which he must be responsible, to provide timely and useful 
intelligence upon which the President and policymakers can make 
sound decisions in the interest of our country.
    The Intelligence Community does not need a feckless czar 
with fine surroundings and little authority. That is the wrong 
way to go. Whether the Congress elects to create a true 
Director of National Intelligence, as the 9/11 Commission 
recommends, or to beef up the real--as distinguished from 
cosmetic--management authorities of the Director of Central 
Intelligence, as others have proposed, the designated leader 
must be clearly and unambiguously empowered to act and to 
decide on issues of great importance to the success of the 
Intelligence Community and to the country.
    There seems to be general agreement that additional 
authority should repose in the top leader of the Intelligence 
Community. These authorities, although widely assumed by the 
American public to exist already, in fact are imprecise, easily 
frustrated and not in regular use. They are: (1) management of 
the intelligence budget; (2) authority to name or at least 
approve the recommendations for presidential appointment of the 
top leaders of the Intelligence Community; and (3) performance 
review and evaluation of these community leaders.
    These authorities could be granted to (1) the Director of 
Central Intelligence, who is also Director of the Central 
Intelligence Agency; or (2) to a Director of Central 
Intelligence who is separate from and senior to the Director of 
the Central Intelligence Agency; or (3) a newly-created 
National Intelligence Director who would replace the present 
Director of Central Intelligence.
    The concept of a National Intelligence Director has the 
present support of the President, the Democratic candidate for 
President, and the 9/11 Commission. The NID would have 
authority to oversee national intelligence centers on specific 
subjects of interest across the U.S. Government and to manage 
the national intelligence program and oversee the agencies that 
contribute to it. It appears that the centers are expanded 
versions of centers which the DCI has created and operated in 
the past, but located elsewhere in other departments and 
agencies.
    Under the Commission model, the NID would manage the 
national intelligence program and oversee the component 
agencies of the Intelligence Community. The report envisages 
management through three deputies, each of whom would hold a 
key position in one of the component agencies. The Director of 
the CIA would head foreign intelligence. Defense intelligence 
would be headed by the Under Secretary of Defense for 
Intelligence. And homeland intelligence would be headed by the 
FBI's Executive Assistant Director for Intelligence, or the 
Under Secretary of Homeland Security for Information Analysis 
and Infrastructure Protection. The three deputies would have 
the job of acquiring the systems, training the people, and 
executing the operations planned by the National Intelligence 
Center.
    Control of the budget is essential to effective management 
of the Intelligence Community. The President, in his remarks, 
has used the term ``coordinate,'' which I understand to mean 
management. Others have suggested something less. There is 
obviously some sorting out to be done between the enhanced 
Intelligence Community organization and its leader and the 
Department of Defense and its Secretary. If this model is 
adopted, the Defense Department will need some assurances that 
tactical, military intelligence will not drift away from its 
military commanders. On the other hand, with respect to 
strategic intelligence around the world, defense agencies must 
be prepared to respond to the management initiatives of the 
National Intelligence Director.
    In all of this I would sincerely hope that this will not be 
just another layer of government. The Director of Central 
Intelligence position would simply segue to the new National 
Intelligence Director at the top of the table of organization 
reporting to the President. The number of new positions needed 
to manage the outreach and responsibilities of the NID should 
be carefully controlled.
    A key proposal is to expand the current Terrorist Threat 
Integration Center as a center for joint operational planning 
and joint intelligence, and staffed by personnel from the 
various agencies. While there are a number of questions to be 
thought through and answered, such as the role of the center in 
operational activities, I believe the concept has merit for a 
number of reasons. First, I think it offers a potentially 
effective vehicle for dealing with the growing threat of 
international terrorism with full participation and sharing by 
agencies across the community. Second--and this is not a 
pejorative observation--there is a risk that the Nation's 
preoccupation with terrorism may cause important and 
significant collections and analytical responsibilities of a 
nonterrorist nature to be neglected. Challenges, for example, 
such as the Cold War, major economic changes among ``have'' and 
``have not'' nations that cause wars, and other matters 
requiring our best collection and analytical efforts for the 
benefit of our policymakers must not be neglected nor subsumed. 
As we have all seen too painfully, sources that have been 
neglected after the fact can dry up and take years to redevelop 
when a new crisis emerges. This must not happen.
    The Director of Central Intelligence, as distinguished from 
CIA, has established a number of centers located for 
convenience at CIA Headquarters. These have made substantial 
community-wide contributions. I believe they should stay with 
the intelligence leader, be denominated at his discretion, not 
legislated, and located where he and his principal advisers 
think most appropriate.
    With respect to covert and paramilitary actions, the 
Commission would keep responsibility for clandestine and covert 
operations in the CIA, but place lead responsibility for 
paramilitary action in the military. I have some doubts about 
this model. The Commission acknowledged that the combined 
activities in Afghanistan worked well. I would prefer to keep 
that model on smaller, turn-of-the-dime activities with the 
CIA. Larger scale actions that are essentially troop 
engagements should be in Defense.
    With respect to relations with the President, while the 
leader of the Intelligence Community must be the principal 
adviser on intelligence to the President, he must work hard, 
very hard to avoid either the reality or the perception that 
intelligence is being framed--read ``spun''--to support a 
foreign policy of the administration. My predecessor, Bill 
Casey, had a different view of this. He served in the Cabinet 
and participated fully in the formulation of policy. When I 
became DCI I asked President Reagan not to put me in the 
Cabinet for the reasons I have noted to you. He told me that he 
thought about it and had come to the conclusion that I was 
right. I was very pleased, therefore, to see that President 
Bush had reached a similar conclusion. The head of the 
Intelligence Community does not need to be located in the White 
House, and to avoid these problems, I believe he should not be. 
The Director of Central Intelligence has had a small suite in 
the Old Executive Office Building through the years as a matter 
of convenience for meetings with White House officials and 
between appointments. I believe that is more than adequate, and 
that he should be housed where he has access to people with 
whom he most frequently needs to consult.
    With respect to the FBI and Homeland Security, the FBI 
should be as it has in the past, a part of the efforts to 
coordinate national intelligence collection efforts with 
international activities. This is more in the nature of putting 
the information together, completing the dots and other efforts 
to avoid information gaps. I think it is important that 
operationally the FBI should take its guidance from the 
Attorney General on its dealings with U.S. persons, and the 
manner in which it collects information in the United States. 
This has been an important safeguard for the American people, 
should not be destructive of effective operations, and avoids 
the risk of receiving vigilante type instructions, whether from 
the Intelligence Community or the White House. While, as 
Justice Jackson once wrote, ``the Constitution is not a suicide 
pact, the Constitution and the rule of law are at the top of 
our core values and must be safeguarded and respected.''
    With respect to the trusted information network, the 
Commission recommends an overhaul of our information system to 
better process, share and protect intelligence across the 
agencies. This has considerable merit and will require more 
work in some agencies than others. As long ago as 2001, I 
headed a Commission on FBI Internal Security, and we provided 
four classified appendices to our report dealing with the 
infirmities of the FBI mainframe, now 13-years-old. Inability 
to rapidly identify and capture information of value to other 
agencies aggravated the circumstances leading to the September 
11 tragedy.
    The 9/11 Commission has issued a special challenge to the 
Congress to overhaul its oversight systems for dealing with the 
Intelligence Community. If acted upon, it will materially 
increase the effectiveness, not only of oversight, but of the 
performance of the company in its relationship to the Congress. 
I am told that over 88 separate committees and subcommittees 
now oversee the Homeland Security Department. This is really 
intolerable, not to say nonsensical. Consideration should be 
given to a joint committee on intelligence, selected with care, 
and including a nonpartisan, highly respected membership.
    At this moment in our history I believe we have passed the 
moment of great fear which often produces unhappy solutions, 
and we have not yet entered a period of indifference, where it 
is difficult to take the forward steps that are needed. We need 
to act, but we must act with great care. The many thousands of 
dedicated men and women in the Intelligence Community, many of 
whom have put their lives on the line for the safety of our 
country, count on you. I know you will not let them down.
    Thank you very much, Chairman.
    Chairman Collins. Thank you, Judge Webster, for an 
excellent statement. Mr. Woolsey.

   TESTIMONY OF HON. R. JAMES WOOLSEY,\1\ FORMER DIRECTOR OF 
   CENTRAL INTELLIGENCE; VICE PRESIDENT, BOOZ ALLEN HAMILTON

    Mr. Woolsey. Thank you. Madam Chairman, Senator Lieberman, 
Members of the Committee, Senator Roberts, Senator Rockefeller, 
it is an honor to be able to testify before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Woolsey appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    Let me say at the outset that--if I could have my whole 
statement submitted for the record, Madam Chairman.
    Chairman Collins. Without objection.
    Mr. Woolsey. I will use it as an outline to speak from, far 
more briefly.
    At the outset let me say that I believe the Commission's 
Report is quite well written. It is an excellent history of 
much of what went wrong over the years. We will doubtless see 
amendments to it, but it is a fine job, and particularly for an 
official government document written by a large number of 
people. It is excellent prose. Its first 300 plus pages I think 
are an outstanding example of work of a commission of this 
sort, and I am a veteran of five of these national commissions.
    Of the 41 proposals for reform recommendations that it 
makes in its final two chapters, I agree fully with 35 of them; 
five, I think, should be adopted in a partial or amended form; 
one, the proposal to transfer all cover paramilitary work to 
the Department of Defense, I could not disagree more with.
    Let me say a word about the scope of the Commission's 
Report as a whole. It titles Chapter 12, where it makes the 
bulk of its recommendations, ``A Global Strategy.'' This may be 
a case of having a misleading headline on an otherwise 
perfectly reasonable press story, but I want to stress that 
this chapter, and indeed the 9/11 Commission Report as a whole, 
does not present a global strategy for the war in which we are 
engaged. This Commission's tasking, as I read it from the 
congressional legislation and from its own foreword, is far 
more like those commissions that assessed Pearl Harbor during 
World War II. They did not seek to establish a grand strategy 
for the fighting of World War II, and this Commission neither 
should seek, and it certainly does not succeed, in establishing 
a global strategy for the war that we are in.
    For example, the recommendations do not deal at all with 
Iran, Iraq, Syria, or our oil dependence on the Middle East, 
and I think it is important to realize that its focus is pretty 
much exclusively on how to keep an organization like al Qaeda 
from attacking the United States again the way it did before. 
This is an understandable focus. That is what it was charged to 
do. But the next part of a war is not always like the previous 
part of a war and we should not assume that this report states 
a global strategy.
    Just a word about its recommendations in Chapter 12. There 
are four sensible recommendations about how to deal with 
terrorist sanctuaries in other countries, five about 
essentially alleviating root causes of terrorism, seven are 
essentially technical, dealing with things like biometric 
entry/exit screening, and four dealing with first responders' 
needs. A number of these, or all of these, I think, are quite 
sound, but none of those 21 really reaches the level of dealing 
with strategic matters.
    Then there are three recommendations that essentially say 
we should show balance (e.g. share information while 
safeguarding privacy, and enhance Executive Branch power only 
when necessary). These are perfectly reasonable 
recommendations, but they are also quite vague, and they do not 
give us much help in deciding issues that are important and 
right now before the country, such as should the Federal 
Government require birth dates from air passengers in order to 
better utilize databases to identify individuals who might be 
terrorists, or should police continue to be barred by local 
ordinances, as they are in many municipalities, from inquiring 
of Immigration authorities about the immigration status of 
someone they have arrested for a State or local offense.
    I want to call particularly to Senator Roberts' and Senator 
Rockefeller's attention, that the next two and a half pages of 
my testimony, on pages 3, 4, and 5, I wrote before I knew they 
were going to be here today. They essentially constitute 
praise, as I offered before the Senate Select Committee, of the 
analysis which the Senate Select Committee did of the 
relationship between al Qaeda and Iraq. I think that it is far 
more nuanced and far sounder than what we have from the 
Commission. I also believe it is important for us to understand 
that we face not just one totalitarian enemy in the Middle 
East, we face at least three: The secular Ba'athists who are 
essentially fascists, modeled after the fascists of the 1920's 
and 1930's; the Islamists from the Shi'ite side of Islam, run 
and operated, whether they are Hezbollah or Moqtada al Sadr, 
out of Teheran; and the Islamists from the Sunni side of Islam, 
such as al Qaeda, its underlying economic sustenance fueled by 
the oil money of the Gulf, and its ideology fueled by the 
hatred put forth by the Wahhabis of Saudi Arabia.
    I think it is important that we should understand that 
these three totalitarian groups hate each other, stem from 
different roots, criticize each other, kill each other from 
time to time, but still are capable here and there of 
cooperation against us, just as Hitler and Stalin surprised the 
world in 1939, including most of the world's intelligence 
analysts, by forging the Hitler-Stalin Pact. So I believe it is 
important to pay attention to what the Senate Select Committee 
says in Chapter 12 about the rather extensive connections, not 
operational, but connections, particularly with respect to 
training, between al Qaeda and the Ba'athists of Iraq.
    Moving on to page 5, Madam Chairman, and the 
recommendations of Chapter 13. I concur with the Commission's 
most publicized recommendation essentially to split the current 
responsibilities of the Director of Central Intelligence and 
set up a separate individual to manage the Intelligence 
Community and serve as the President's chief adviser on 
intelligence from the individual who would be the head of the 
CIA and responsible for management of it. I also concur with 
the establishment of the National Counterterrorism Center 
reporting to the new NID.
    Just a quick word about Senator Rockefeller's interesting 
analogy to a custody arrangement for the current relationship 
between the DCI and much of the community. It is in a sense a 
custody settlement, but the Director of Central Intelligence 
under the current system is the party who gets only very rare 
and brief visitation rights. It is a very weak position 
currently from the point of view of managing either the 
personnel or the money within the Intelligence Community. And I 
do believe that it is a job, the current DCI job, that should 
be divided. It is not impossible for one person to do this job 
under the current circumstances if that person has a close 
working relationship with the President, the general support of 
the Congress, and close working relationships with eight 
members of the Congress, the four chairmen of the two 
intelligence committees and the ranking members, and the 
chairmen of the Defense Appropriation Subcommittees and their 
ranking members.
    But in my case, I did not have a bad relationship with the 
President I served, I just did not have much of one at all. And 
with respect to the committee chairmen and ranking members, I 
had seven good relationships and one bad one, as my testimony 
summarizes. What that meant was, because of those two 
circumstances, in 1993 Congress was in session 195 days, and I 
had 205 appointments on Capitol Hill--more than one a day for 
the time Congress was in session. Much of that was because of 
what has been publicized a number of times, my disagreements 
with the chairman of the Senate Intelligence Committee at the 
time, Senator DeConcini, over a range of issues, terminating 
satellite programs, terminating computers for NSA, terminating 
funds for Arabic and Farsi language instruction, closing large 
numbers of CIA stations around the world, transferring all 
overseas penetration of foreign intelligence services to the 
FBI, and so forth. Some of these disputes I won, some I lost, 
but it took a very substantial amount of time.
    Should some future DCI, under the current structure, have 
to spend that type of time and resources dealing with 
congressional oversight, I think it is easy to see how it would 
be very difficult for him or her to have enough hours in the 
day also to manage the CIA. I do think it is important to focus 
on the precise responsibilities of the new NID, and I favor, 
over the original White House formulation and over the 
Commission's formulation, the formulation in Representative 
Jane Harman's original bill. In her original bill she made the 
appointments and personnel process for defense intelligence 
agencies, such as NSA, a joint matter between the NID and the 
Secretary of Defense, and joint responsibility, of course, with 
respect to counterterrorism work at the Federal Bureau of 
Investigation, joint with the Department of Justice.
    Her bill also gave responsibility for budget execution 
essentially to the NID, but left the Secretary of Defense and 
the Attorney General, in appropriate cases, much more of an 
opportunity to contest some such decisions before the President 
than I see in the Commission's bill. I believe the Commission's 
bill leans, frankly, a bit too heavily toward Czardom, and if 
there is one term I would like to see if we could get out of 
this debate, it is in fact ``intelligence Czar.'' As far as I 
am concerned, a number of centuries of stupidity, rigidity and 
authoritarianism, followed by the victory of Bolshevism, is not 
a good model for the management of American intelligence.
    With respect to information sharing, sharing is fine as 
long as one is not sharing with the Walkers, Aldrich Ames, 
Robert Hanssen, or some blabbermouth who likes to talk to the 
press about the fact that we have broken bin Laden's satellite 
telephone communications. The problem is that we do not just 
need to share, we need to share wisely. And the more one knows 
about intelligence sources and methods for a particular piece 
of intelligence, frequently the better one is able to interpret 
it, and the better job of analysis one is able to do. That is 
why the President's daily brief has a lot of material in it 
about sources and methods and why sources and methods are 
guarded as carefully as they are.
    I think the NID needs to have different approaches toward 
different parts of the intelligence process with respect to the 
degree of uniformity he or she requires, with respect to the 
degree of sharing, with respect to the degree of permitting 
competition and even freelancing. For example, at the front end 
of the process, development of new collection methods can 
benefit from competition between agencies. We were competitive 
at the CIA with the Defense Department in 1993. That is how we 
developed the Predator.
    In tasking collection, customers should be consulted, not 
just the operators of the collection systems. That is important 
because it is one reason why we need to move away from the 
stovepiping that we now see. In processing data also we need to 
move away from stovepipes.
    In analyzing data and producing intelligence, some 
competition is not a bad thing at all. It is a good idea to 
have competitive analysis. And in dissemination, I would prefer 
a system whereby ``need to know'' is constantly reviewed and 
enforced technically, rather than one in which, as the 
Commission suggests, need to know should always take second 
place to need to share.
    Let me close, Madam Chairman, with just one word about 
paramilitary action being transferred to the Pentagon, which I 
believe is an extraordinarily bad idea. Covert paramilitary 
operations are only occasionally necessary for the United 
States. Covert should connote keeping them secret or denying 
them, plausibly or otherwise, not only before but after the 
fact. It was because covert action generally, including covert 
paramilitary operations, came into question in the mid 1970's 
that Congress, for good and sufficient reason, decided to place 
such covert action under the requirement for having 
presidentially signed findings and submission to the 
Intelligence Committees of the Congress. I think that was a 
wise decision, and for covert action, that process should be 
continued, including paramilitary covert action, which we deny, 
plausibly or otherwise, after the fact. Sometimes that is 
necessary. Sometimes one needs to save the face of an enemy as 
well as that of friends and allies.
    But the Pentagon does not do that now. The Pentagon does 
conduct clandestine military operations which are kept secret 
ahead of time or which involve deception ahead of time, and 
that is as old as warfare, considerably older than the Trojan 
horse. I think it is important that we not move to a situation 
whereby the Pentagon, because it has responsibility for covert 
paramilitary operations, also gets brought under the machinery 
of findings and the rest, under which the CIA covert action now 
operates under. I think that could cripple our Special Forces 
in the war against terrorism, and I think it is a very bad 
idea.
    In conclusion, let me just say that as stated above, I 
think it is quite likely, because of the limited nature of the 
charge they were given, that is the reason the Commission did 
not come up with anything approximating a global strategy. But 
we should not assume that they did so.
    Second, since so much attention is being paid to foreign 
intelligence in the Commission's Report, it may be natural for 
some to draw the conclusion that with respect to 9/11 foreign 
intelligence is what principally failed. Many aspects of our 
government, of our country failed with respect to September 11.
    But we should at least note that most of the preparations 
for September 11 took place in two countries, Germany and the 
United States, where the foreign intelligence operation of the 
United States does not really collect intelligence. Satellites 
are going to tell us very little about terrorists, signal 
intercepts are going to tell us very little, particularly if we 
talk about what signal intercepts we are obtaining. And so 
foreign intelligence reforms generally may have only a modest 
effect on the war on terrorism. It may be much more important 
whether there is a municipal ordinance that bars checking out a 
tip from a citizen about, say, what a Saudi visitor's 
immigration status is.
    And finally, even within the field of foreign intelligence 
reform, some substantive reform, such as whether we use Non-
Official Cover officers far more than we do now, and rely less 
on official cover, to my mind probably would make more 
difference than issues such as the establishment of the NID. 
But within the framework of the Commission's recommendations 
and within the framework of this Committee's deliberations, I 
would support the establishment of an appropriately designed 
office of NID, and I thank you again, Madam Chairman and 
Members of the Committee for your attention.
    Chairman Collins. Thank you very much. Admiral Turner.

TESTIMONY OF HON. STANSFIELD TURNER, FORMER DIRECTOR OF CENTRAL 
INTELLIGENCE; PROFESSOR, SCHOOL OF PUBLIC POLICY, UNIVERSITY OF 
                            MARYLAND

    Admiral Turner. Madam Chairman, Members of the Committee, 
Chairman Roberts, and Vice Chairman Rockefeller, I much 
appreciate this opportunity to be with you, and the honor of 
being here.
    I come at this issue of whether we want a National 
Intelligence Director from the point of view of someone who was 
a guinea pig National Intelligence Director from 1977 to 1981. 
President Carter's concept of how our intelligence apparatus 
should operate was very similar to the recommendation of the 9/
11 Commission that we are talking about today. At my very first 
meeting with the President, before he had actually designated 
me as his nominee for Director of Central Intelligence, he gave 
me oral instruction that if I took this job I was to 
concentrate on being the Director of Central Intelligence, not 
on being the head of the CIA. As a result, I delegated 80 
percent of the responsibilities for the CIA to the Deputy 
Director of Central Intelligence.
    For instance, I would come before committees of the 
Congress and testify on the overall intelligence budget. Frank 
Carlucci, the deputy, would then follow with a detailed 
explanation of the CIA's portion of that budget. This freed me 
up to concentrate on operating, and managing, the Intelligence 
Community. In particular, it freed me up to participate very 
actively in the analytic portion of the intelligence process, 
which of course, leads to estimates, which are one of the key 
products of intelligence. The analytic process deserves the 
personal attention of the Director of Central Intelligence. 
Moreover, unless the Director personally participates in the 
analytic process, it is not going to be as good as it should 
be. Only the Director can adjudicate the differences between 
the various analytic agencies. So his or her participation is 
the only way to avoid having consensus intelligence by 
committee. If he or she does not give that leadership, it will 
not be there.
    President Carter's oral directive to me to concentrate on 
the community, not only freed me up to help manage it, but he 
also gave me specific authorities in a Presidential Executive 
Order. The first one we have discussed a lot today was over 
budgets. We still had a committee to review the budgets of the 
entire Intelligence Community, but in accordance with President 
Carter's Executive Order there was only one vote on the 
committee, mine.
    This way we could develop a budget that had a theme to it. 
We could ensure that the budget covered all the bases we wanted 
to cover with the priorities we wanted to cover. We established 
a deputy for budgets. The Secretary of State, the Secretary of 
Defense, and others could, and did, dispute my choices for the 
budgets of various of their agencies. They took their disputes 
to the President in an annual meeting we had to review the 
budgets. Sometimes they won, sometimes they lost, but 
nonetheless, there still was a theme to the budget even with 
small perturbations to it.
    Second, the President's Executive Order gave me the 
authority to direct the priorities for the agencies collecting 
intelligence. We had a deputy here also. When we needed 
intelligence on some certain problem, the deputy would get 
together representatives of the various agencies that collect, 
NSA, NRO, the DO of the CIA, and he or she would say who can 
help in this aspect of this problem that we have? And then the 
deputy for collection would assign priorities to these various 
agencies, including roughly what amount of assets, what kind of 
resources are we going to give to this problem.
    This also was very useful because as they sat around the 
table looking at individual problems, there was an exchange of 
intelligence about what they were finding. The clue that a 
photograph might tell you led to focusing an intercept 
capability, which led to putting a human agent at the scene.
    A third authority the President's Executive Order gave was 
to task the analytic agencies. This was not a question of what 
their answers were going to be. It was a question of what 
topics they analyzed. We tried always to have two, or maybe 
three, analytic agencies working on the same problem 
independently and separately until they came up with their 
opinions. Then we would attempt to fuse them, but we encouraged 
bringing the diverse views forward.
    The 9/11 recommendations are really, in my view, a 
reincarnation of President Carter's program, and they are not 
nearly as big a change as people are talking about, and I am 
not worried about a huge bureaucracy. We have a bureaucracy out 
there that the DCI has today to manage the Intelligence 
Community. We are just going to change the name on the door.
    The worst result that could happen from this though, in my 
opinion, is that we create a National Intelligence Director and 
not give him or her authority. Such a National Intelligence 
Director without authorities and without specific control of 
the CIA--and I very much encourage the separation of the 
National Intelligence Director from the CIA--but without the 
CIA and without new authorities, this is a job that is going to 
be impotent.
    I would also like to suggest quickly that there are a 
couple of other authorities that it would be useful for you to 
ensure are given to the new National Intelligence Director. The 
report does cover hiring and firing, but I would suggest that 
should not go as far as the 9/11 Commission Report suggests. 
The heads of the analytic agencies, the DIA in the Defense 
Department, the INR in the State Department, the DI in the CIA, 
they should not be subject to the National Intelligence 
Director's appointment, hiring and firing. The secretaries of 
those departments deserve to have their own intelligence 
adviser in whom they have personal confidence. If you insist 
they take somebody they do not like, they would just create a 
new intelligence operation of their own on the side. I think 
those are departmental responsibilities.
    Second, I think it is very important that we define what is 
national intelligence, what is in the national intelligence 
budget. It is ridiculous today that some 80 percent of the 
intelligence budget, if I understand it, is in programs like 
the tactical TIARA program or the Joint Military Intelligence 
program. One of the ways the Defense Department countered 
President Carter's having designated me as in charge of 
budgets, was to begin to take things out of my budget and put 
them into these tactical budgets. I would like to draw a line 
here. The line is that it is tactical if it is tasked only by a 
commander in the field.
    Third, we need to be sure that new legislation should 
authorize the National Intelligence Director to direct the 
dissemination of intelligence. Today individual agency heads, 
in the name of protecting sources and methods, have all kinds 
of devices for controlling who receives the intelligence they 
have. It is perfectly reasonable to try to protect sources and 
methods, but there has to be a national balance between the 
importance to the country of exchanging that information, at 
least on some limited basis, and protecting sources. And the 
person to make that judgment in the national interest is not 
the head of the agency who is very concerned with the sources 
and method. It is the National Intelligence Director we are 
going to create.
    Finally, the key point whether we should increase the 
authority of the National Intelligence Director at the expense 
of the Department of Defense is one that only you in the 
Congress can address at this time. If we are going to act soon, 
it seems very clear that adjudicating within the Executive 
Branch and getting the Department of Defense to give up 
territory, and getting the CIA to accept being separated from 
direct access to the President is just going to be 
bureaucratically too difficult.
    And I would finally suggest to you, please, if we are 
serious about the war on terrorism, we have to appreciate that 
while it was all right in many ways for the Defense Department 
to control our intelligence operations to the high degree that 
it has since 1947 during a Cold War, when the threat to this 
country was a military threat, that has changed. And if it has 
changed, we deserve to change who controls our intelligence so 
that it is done not in the military interest but in the 
national interest.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Admiral Turner.
    Judge Webster, the 9/11 Commission documents very well the 
failure to share information between the FBI and the CIA, and 
the Commission documents the legal and cultural barriers that 
prevented that information sharing, and that is one reason that 
the Commission has proposed that the National Intelligence 
Director have authority over both the domestic and foreign side 
of intelligence.
    In his written statement submitted to the Committee, former 
DCI Robert Gates raised some serious concerns about vesting in 
the new intelligence director the authority over both domestic 
and foreign intelligence, and he talks, as you did briefly in 
your statement, about President Truman's fear that if those two 
areas were under one person you might create an American KGB, I 
believe Truman said. Dr. Gates has suggested that we need to 
put some safeguards, and that one such safeguard might be to 
restrict the NID to receiving domestic intelligence only with 
respect to certain categories of threats like terrorism, 
weapons of mass destruction, and international drug 
trafficking.
    Since you have served as both head of the FBI and the CIA, 
I would very much like to get your assessment of what 
safeguards if any we need to include if we are going to give 
the new Director authority over the foreign and domestic 
divide?
    Judge Webster. Madam Chairman, Dr. Gates's suggestion of 
categories is an interesting one and deserves further 
consideration by the Committee.
    My earlier remarks had to do with operations, primarily 
with operations, getting the intelligence and how to get the 
intelligence, and making sure that we are dealing with U.S. 
citizens. We did it in a manner that comported with our 
requirements, our values, and sometimes I liken that to the 
investigation of the assassination of President Lincoln, when 
we arrested 2,000 people, all the cast of My American Cousin, 
did a whole range of things which were commensurate with the 
forensic skills and capability at the time.
    We now have other means of getting information. Some of it 
requires warrants. Some of it does not. I prefer that the 
Attorney General be involved in the process of determining how 
information is obtained and whether or not it requires a 
warrant or requires whatever restrictions. The Patriot Act 
liberated a lot of the frustrations with respect to getting, 
focusing on telephones rather than on individuals in matters of 
that kind. It has been roundly criticized, but most of those 
changes, I think, were constructive ones.
    There has to be a relationship between international 
intelligence and domestic intelligence which recognizes the 
need at the domestic level to provide information to those who 
are concerned with the overall international aspects. A major 
problem--and this goes beyond your question a little, but I 
think it is so fundamental--and that is to pay attention to the 
information gathering techniques that we have today and how 
they were constructed. A 13-year-old mainframe simply does not 
work today to do what you would like to see done. They are 
trying to improve it. The past jobs, Congress has voted some 
money for Trilogy and others, still very limiting. The ability 
to make sure that the information collected in a particular way 
by the FBI can be transmitted on responsible demand from the 
NID or whoever has the authority to request that information, 
can in fact be done and done in a timely way is badly lacking 
now. I think a lot of those dots could have been connected had 
they had the ability to respond. They now have the charter to 
respond.
    Bottom line: We could do a lot more. We need better 
equipment. We need the will. The message is out there. I think 
that the focus of the Congress should at least be on how the 
information is collected.
    Chairman Collins. Thank you.
    Mr. Woolsey, a major issue facing this Committee in 
drafting the bill is how much authority the National 
Intelligence Director or the Director of the National 
Counterterrorism Center should have in tasking the collection 
of information by the various intelligence agencies. I raised a 
scenario in a previous hearing of what if you had a satellite 
that was over Iraq and DOD wanted it to stay over Iraq, the CIA 
wanted it to be shifted to Afghanistan? In your experience, how 
are those conflicts resolved, and should the Director have 
tasking authority?
    Mr. Woolsey. I think that the Director should have more 
tasking authority than is now implemented, Madam Chairman. The 
history of this is that going back, there was more collective 
tasking than there is now. There used to be a committee called 
Comirex that tasked the satellites, for example, in which the 
whole community participated.
    When I was the head of a panel for Bob Gates in the summer 
of 1992, looking at restructuring the National Reconnaissance 
Office, we came up with something they called the needs 
process, which was relatively straightforward. We had a very 
experienced intelligence officer analyst make the rounds of the 
customers, not just the people who operated collection systems, 
but the customers, including Treasury, State, and so forth, and 
come back with us with a judgment about what their needs were 
and whether they were being balanced properly by the official 
process. I tried to keep something like that going when I was 
Director of Central Intelligence, but things like that often 
get bureaucratized rather quickly.
    The problem is that today the SIGINT people tend to task 
SIGINT and the satellite people tend to task satellites, and I 
think one important positive reform that could come from having 
the NID or a NCTC Director under him or her is that you could 
have a process whereby intelligence consumers could have more 
influence, again, filtered through the balanced judgment of 
some professionals, but nonetheless, more influence than they 
have now. So I would regard that as one positive outcome of 
having the NID or a CTC.
    And I must say, with respect to the question that Judge 
Webster answered, I think another reason to have a NID is that, 
with the restrictions he mentioned, which are very important, 
it is a better idea to have someone other than the head of the 
CIA be the person to whom someone with responsibility in the 
Justice Department or the FBI reports. I go into this some in 
my statement, so I will not go into it any further here, but I 
would much prefer the NID to have some type of limited joint 
authority over CIA or foreign intelligence and domestic 
intelligence rather than the individual who is the head of the 
CIA.
    Chairman Collins. Thank you.
    One very quick final question that I would like all three 
of you to answer, and we will start with Admiral Turner. Should 
the NID serve at the pleasure of the President or have a term? 
Admiral Turner.
    Admiral Turner. Absolutely at the pleasure of the 
President.
    Chairman Collins. Mr. Woolsey.
    Mr. Woolsey. I agree.
    Chairman Collins. Judge Webster.
    Judge Webster. I agree, and I do not think you can do 
anything about it. People cite the FBI 10-year term as a model. 
If you read the statute it says not more than 10 years. It was 
a reaction to 48 years of one director. The Constitution 
protects the Executive authority to hire and to fire, and I do 
not believe that--if you had a quasi-legislative thing like the 
Federal Reserve Board or something like that, yes, but I think 
constitutionally it would be very difficult to do. They tried 
to do it with the FBI and concluded they could not do that.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    I liked your answer, Judge Webster, that progress sometimes 
is limiting a term that went 41 years to only 10 years, and we 
move forward. Somebody said to me about those terms--and it is 
a relevant point as we think about this office--that 
fortunately we had recent experience with this, that you can 
have somebody in a term that goes beyond the term of the 
President, but what happens if the President loses confidence 
in that individual and simply does not talk to him? That is as 
bad or worse than the fear of them getting too close.
    I thank you all for your testimony. I found it very 
helpful.
    Senator Rockefeller said something in his opening statement 
I want to quote, which is that we are operating in a system now 
in the intelligence community that is fundamentally 57 years 
old, and it was created during a very different time in world 
history, when we were facing the rising threat of the Soviet 
Union. Of course it has been changed here and there, but 
fundamentally it remains the same.
    Admiral Turner, you said that at the end of your statement 
in terms of the balance of authority between the intelligence 
director and, for instance, the Secretary of Defense, and I 
think we really have to keep that in mind.
    To me it all comes down to the fact that in the war on 
terrorism, intelligence, which of course has always played a 
critical role in warfare, plays an even more critical role 
because we are dealing not with armies massed on a field or 
navies at sea. They may strike, they may surprise, but then you 
have the opportunity to come back. These are people who are 
prepared to kill themselves to kill us, and they will strike in 
an isolated way as they have continued to do. So intelligence 
becomes even more critical as a way to stop the attack before 
it happens, and that is why we are focusing all this attention 
on our intelligence system and community.
    I do want to ask you about the relative balance between 
Department of Defense and the proposed National Intelligence 
Director, because obviously, as others have said, this is going 
to be a critical and most difficult part of our work here. The 
Defense Department, indicated by some testimony offered last 
week on the House side, does appear to be concerned about the 
recommendation that the new intelligence director be given 
control over intelligence budgets, arguing that might reduce 
ultimately the intelligence available to combat commanders. 
They have expressed the fear of exactly what Senator Collins' 
hypothetical example that NID would favor using national assets 
like satellites to provide more strategic intelligence to 
policymakers on terrorism rather than more operational or 
tactical intelligence to military commanders.
    But I think the 9/11 Commission is saying that is exactly 
why we need one person with the budget authority to make those 
judgments, because it may well be more in the national interest 
to make those assignments to the war on terrorism as opposed to 
the Department of Defense. And some at the Defense Department 
have said that they were going to carry on this fight because 
they had to do it on behalf of the warfighters, although 
Commissioner Hamilton said he thought it was unimaginable that 
military intelligence would not continue to be a very high, if 
not the highest, priority for our Intelligence Community.
    I wonder if each of you would give me a response to whether 
you think the balance of authority here, assuming for a moment 
that we adopt something like the Commission proposal of the NID 
with budget authority, whether the balance of authority now has 
to, not shift away from the Pentagon, but to shift to somebody 
on top, who as you fascinatingly were during the Carter 
Administration, who has the authority to make judgments between 
intelligence, war on terrorism, and the Pentagon. Admiral 
Turner, why don't you start?
    Admiral Turner. Senator Lieberman, one other aspect of the 
Carter Executive Order was that we would periodically rehearse 
the transfer of tasking authority over the collection elements 
from the Director of Central Intelligence to the Secretary of 
Defense. This was for the possibility that we would one day be 
in a really active war, where intelligence was absolutely vital 
to the Defense Department, and therefore you would not want the 
Director of Central Intelligence, a nonmilitary person 
normally, to make those judgments.
    And so from time to time, for a week or something like 
that, say, my deputy for collection tasking would take his 
instructions from Harold Brown over in the Defense Department, 
rather than from me. This gave the Defense Department a fall-
back position. They could go to the President and say, ``Sir, 
we think the time has come under this crisis that we are in 
right now, that we ought to take this away from Admiral Turner 
out there and do it ourselves.'' That was I think a good 
compromise.
    Senator Lieberman. There is some language in the 9/11 
Commission Report that suggest that they see the same kind of 
dispute resolution mechanism here either through the National 
Security Adviser or obviously ultimately the President. Mr. 
Woolsey.
    Mr. Woolsey. Senator Lieberman, I believe one of the older 
statutes already essentially permits transfer of tasking 
authority in wartime to the Defense Department. To my mind, 
tasking is readily dealt with through Executive Order. You do 
not need legislation about tasking, I do not think. I think 
that the NID ought to have more authority than the DCI has now, 
and it ought to be more collectively done with an eye toward 
consumers, including the Defense Department, and I think that 
is one thing that we have learned from the 9/11 Commission 
Report and from the war on terrorism.
    Particularly important though, is fusing foreign and 
domestic tasking and intelligence. That is really what is new, 
and I do not think the 9/11 Commission Report or anything else 
that I have seen demonstrates that the Defense Department is 
the principal problem with what went wrong with respect to 
September 11. We have had also some important successes over 
the course of the last two decades in utilizing not just 
tactical systems, but national systems, directly and 
immediately on the battlefield, and that has had a lot to do 
with the Secretary of Defense's hand in managing many aspects 
of the defense agencies in intelligence.
    To go back to Senator Rockefeller's analogy about the child 
custody, which I am intrigued by, I think the most important 
thing is not to have a divorce between the Secretary of Defense 
and the NID. When I was DCI, I had excellent relations with 
first Les Aspin and then with Bill Perry as Secretaries of 
Defense, and we worked together on things quite 
collaboratively. We had a single baseball cap with ``Chairman'' 
on it, and we would co-chair meetings, and sometimes I would 
put it on and sometimes he would put it on. We just worked it 
out.
    So I think the Harman formulation, frankly, is superior to 
both that of the Commission and that of the original version I 
heard from the White House, because I think it strikes a 
balance requiring joint appointments of individuals such as the 
Director of NSA, and it gives the Secretary of Defense a word 
in budget execution, although it leaves the principal authority 
to move money around in the hands of the NID. I think that is a 
better solution than what I have heard from either the 
Commission or initially from the White House.
    Senator Lieberman. Thank you. Judge Webster.
    Judge Webster. I think I am largely in agreement with that. 
With 80 percent of the budget in defense, the elephant is in 
the room, and how you create a relationship between the NID and 
the Secretary of Defense becomes very important. There has 
always been a principle of reclama on serious issues of 
disagreement, and they worked well in my 4\1/2\ years at CIA. 
The Secretary of Defense only exercised that one time, and that 
provided two of us in chairs in the Oval Office with the 
President, and he made the decision.
    I agree that this problem did not affect the missing of the 
dots. I see nothing in there to think that was the problem.
    During the Gulf War, we pulled satellites that were 
dedicated to watching the Soviet Union closely and moved them 
into the Middle East and worked closely with them. That worked 
very well.
    We had one unexpected issue which was, again, resolved by 
the deliberative process with the National Security Adviser 
acting at the instruction of the President, where our analysts 
disagreed with what we saw about the number of tanks that had 
been destroyed and scud launchers that had been destroyed, 
which was the key to the President's authorization to begin the 
land war. Those things do not happen very often, but I think, 
in retrospect, looking back on it, while I think that CIA was 
right, it would have been better for the military to have had 
that choice and made that final judgment.
    Senator Lieberman. Thank you. And my time is up. Can I ask 
for one answer from all of you? I am following the Chairman's 
precedent.
    I am curious whether you briefed the President yourself 
personally, and if not, generally speaking, how often you spoke 
to him? We have just come through a period where the Director, 
and now the Acting Director of CIA, is giving the President 
daily intelligence briefings.
    Did you do that, Judge Webster?
    Judge Webster. Yes, I did, Senator, most days. I had a 
briefer there ever morning, so I did not feel an obligation to 
it, but this was the first time in a long time that the 
President, then-President Bush, took his briefing directly from 
CIA. It had previously been through the National Security 
Adviser.
    Senator Lieberman. Mr. Woolsey.
    Mr. Woolsey. A handful of times early in the 
administration, President Clinton had me and the briefer in. 
Normally, thereafter, he almost always read the daily briefing. 
Other than that, I had two substantive meetings with him in 2 
years--one a year.
    Admiral Turner. President Carter preferred to read the 
President's daily brief. I had a half-hour session with him 
three times a week for the first several years to bring him up 
on other intelligence aspects.
    Senator Lieberman. That is very interesting. Thank you all 
very much.
    Chairman Collins. Thank you.
    Senator Roberts. Yes. Thank you, Madam Chairman.
    I would like to cut to the chase again like everybody else 
has. We hear the idea of having a NID is good only if it comes 
with some greater power than currently resides in the Office of 
the DCI. If we do not, it is argued we run the risk of really 
creating an intelligence czar and causing more harm to the 
community than good. In other words, you have two hats, and you 
shift the deck chairs on the ``Good Ship Intelligence,'' and 
then we are back again in 6 months having, I guess, more 
hearings.
    But at any rate, I think I hear from you all three saying 
that you agree that if a NID is created, we must empower it; 
that you agree that greater control over DOD NFIP budgets--that 
is the National Foreign Intelligence program--should be 
included in these broader powers.
    Well, here is the question, and here is the question that 
faces or the challenge or the frustration that faces Senator 
Rockefeller, Senator Durbin, and Senator Levin and myself. As 
you have said before--I think Admiral Turner said it--that the 
Defense Department controls 80 percent of the funding, and the 
Intelligence Committee then controls 20 percent. That adds up 
to 10 percent of the total DOD funding in regards to the money 
that they control. And then we try to make some sense out of 
the difference, and pardon these acronyms, but the Intelligence 
Community absolutely devours them, and then they change them 
every once in a while.
    One is TIARA. When you are talking about TIARA, other than 
the one that we are going to give to the distinguished 
Chairman, that is tactical. Everybody pretty well figures out 
where the four services is with the Department of Defense and 
that commander in the field would have that capability. One is 
called JMIP. Now, that is the satellites. That is the 
collection. That is tremendously important, where we have to 
maintain our technology, and then there is the NFIP, which is 
what I have explained, the National Foreign Intelligence 
Program. That is the strategic and the counterterrorism. The 
whole idea is how do you meld these together under a NID so 
that it works.
    Right now, under the Defense Department, you have the 
Defense Intelligence Agency, you have NSA, the NRO, and NIMA. I 
am sorry. They have changed that acronym. It is NGIA. And then 
you have the four services. Nine of the 15 are controlled 
literally by the Defense Department.
    Now, this leads to something that I have called ``torn 
between two masters.'' Let me give you two examples:
    When we had an urgent need, at the request of many 
Senators, more especially Senator Levin, who was an absolute 
tiger on this, when the Iraq Survey Group went to Iraq to look 
for the weapons of mass destruction, there was an effort all 
communitywide to say, ``OK, who has experience in regards to 
Iraq?'' And the State Department, they have a small arm of 
intelligence, and the request came to the State Department--I 
won't get into the number that was requested--Secretary Powell 
said, ``No, I am sorry, you cannot go. I am shorthanded. I need 
you here.''
    David Kay, from orders on high, said, ``No, we need you 
with the Iraq Survey Group.'' Does that analyst that has 20 
years of experience and possibly a Ph.D., who does he work for 
or who does she work for? Does he or she work for Secretary 
Powell or does he or she work for the new NID or does he or she 
work for the Secretary of Defense?
    Let me give you another example. There is the Defense 
Intelligence Agency, obviously under the Secretary of Defense. 
The NID says, ``You know, we have got a real problem in surge 
capacity in Colombia. We need 300 DIA agents now. Move them, 
please.''
    And the Secretary of Defense says, ``No, I am sorry, we 
still need them in regards to Afghanistan. We are about to have 
an election there if we possibly can. We are not going to do 
it.''
    Now, if you are torn between two masters, it seems to me 
that is the problem. I am assuming that all three of you 
indicate that the NID must be empowered, must have greater 
control over the DOD budgets. Where we get into problems is do 
you move all nine of these agencies? You would not move nine. 
You would not move the services, I am sure. That is tactical. 
But there are five others here. Would you move them over to the 
NID's authority or would you not or would you try to work out 
something in which case the Under Secretary for Intelligence 
for Defense, Steve Cambone now, would meet with, say, a four-
star, if that is the way to do it, or some kind of intermediary 
functionary to try to work this out on a better basis. That 
seems to me to be the big problem or challenge as we have as 
trying to forge a bill.
    Would any of you have any comments?
    Mr. Woolsey. Mr. Chairman, I think that this is one where 
the Washington version of the Golden Rule that whoever has the 
gold makes the rules will apply. If budget execution authority 
is given to the NID, he will or she will have a much better 
ability to say to the Secretary of State or the Secretary of 
Defense, ``Look, I sympathize. I understand. I know this fluent 
Arabic language linguist is a very rare asset, but you did not 
hear me. I really need her or him.''
    I do not think one needs to, in legislation, or perhaps 
even Executive Order, get into the business of precisely who 
assigns. The Intelligence Community works in a collaborative 
way a lot of the time, but the hardest cases are precisely the 
ones you mentioned because experienced and talented people are 
much harder to find than dollars or just bodies to fill slots, 
and so I am not surprised that Secretary Powell or the 
Secretary of Defense in other circumstances would struggle 
against having one of their very best people detailed. I think 
this will follow reasonably from a solution generally in favor 
of what the NID needs, will follow from the NID having the kind 
of enhanced budget authority that is being talked about, even 
if it is not total budget authority of the sort that is in the 
Commission bill or Commission recommendations.
    Senator Roberts. Admiral Turner, do you have anything to 
say?
    Admiral Turner. I would just come back to my comment that 
we have to make up our minds is terrorism No. 1, or is it not? 
And if it is, then the NID should have the ability to say, ``I 
am sorry, Secretary Powell, I really need that group of people 
or whatever it is in this other capacity.''
    Judge Webster. My former deputy, Richard Kerr, made an 
interesting observation the other day that is worth repeating, 
that intelligence is really a service industry, a service to 
many other departments, fields and needs. And I think that the 
NID, as a head of that, has a duty to listen, and he has to 
listen understandably. And then he has a duty to decide. And if 
the Congress wants to put a reclama provision in there or to 
suggest that if the Department is not satisfied, he can take it 
up higher, that would be fine. It tends not to work that way 
very often in that nobody wants to do that until they really 
think they need it. So I think that kind of a system can still 
work.
    Senator Roberts. My time has expired, Madam Chairman, and I 
thank you for the time, but I think that is one of the very 
crucial decisions we have to make is, I think, one of the 
witnesses said something about breaking the china. I can assure 
you there is another committee in the Congress upon which I am 
privileged to serve who has quite a bit of feeling about this. 
They are having hearings this afternoon and tomorrow, which I 
will attend.
    And I think the decision, Madam Chairman, is do we really 
transfer all of those agencies over to the NID or is there some 
kind of transformational authority whereby--I do not want to 
say force, but that they certainly work together in better 
fashion than they do now, and that is an absolute and very 
important question.
    I thank you for your time.
    Chairman Collins. Thank you. Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chairman. I want to 
ask kind of a generic or philosophical question. Throughout all 
of the hearings that have taken place so far, there has been 
this undercurrent of nervousness about the so-called 80/20 
relationship, and that cannot help but feed into the strength 
of the personality of the Secretary of Defense, the strength of 
the personality of the Vice President, who was Secretary of 
Defense, and perhaps a tendency of Condoleezza Rice to lean a 
bit in that direction.
    Now, it could be that we are making ourselves walk around 
too many corners or twisting ourselves up on all of this unless 
there is some absolute reason that a Secretary of Defense has 
to have budget authority. In other words, if the NID has budget 
authority, that becomes a direct threat to the Secretary of 
Defense and, thus, the committees begin to fight, and the 
bureaucracies begin to fight, and the press begins to take 
sides, and it is not healthy. Because, as Admiral Turner said, 
what counts is the national interests.
    You have 15 different intelligence agencies. We have just 
created another one, homeland security, and you could, I 
suppose, let us say, take out NSA, NRO, the National Geospatial 
Intelligence Agency, you could take some of those out and say, 
well, let the Secretary of Defense and the CIA or the NID work 
that out on a common basis. You remember when George Tenet was 
testifying before the 9/11 Commission, and he was asked about 
his relationship with Rumsfeld, Secretary Rumsfeld, and the 
answer was, well, it is terrific, and things in Washington do 
depend upon relationships, as well as laws or Executive Orders 
or whatever. The problem was, I think we all had the feeling at 
that time that Director Tenet was not going to be around a 
great deal of time, so his answer did not make much difference, 
that he got along well with the Secretary of Defense.
    Now, you can do this whole cloth. You can NID it and give 
absolute budget authority, period. You can do it in a partial 
manner that you can share on NSA, NRO, the National Geospatial 
Intelligence Agency, etc., but if you do that, you have already 
changed the game. And in a town where rules are rules, what 
President Carter said to you was just fascinating. Senator 
Lieberman and I were whispering about it. It is fascinating 
that he said go ahead and do this, go ahead and do this. Run 
the Intelligence Community and then if there are problems we 
will work them out.
    I think that was then. This is now. As Senator Lieberman 
said, intelligence is now the tip of the spear. It comes first. 
It comes before war fighting, unless it is a sneak attack, and 
then it still comes before war fighting because it is meant to 
anticipate that.
    My question is, is this just a kind of a traditional fight 
in Washington where the Secretary of Defense has what the 
Secretary of Defense has, and the CIA is tasked to do three 
different things, but can only do one of them, in fact--well, 
he has a relationship with the President or she has a 
relationship with the President--but it is not clear.
    So, what I am saying is this--some people give up on this 
legislation, on the 9/11 Commission legislation, because they 
say it will never work. One of you said it a moment ago because 
it will not happen. Congress will not pass it. The city will 
not allow it. The cultures will not allow it. I want to hear 
that I am wrong on that, but I would like your views.
    Admiral Turner. I am a military professional, and I think I 
understand the military's obsession with being sure they have 
access to the best intelligence. Every military commander wants 
every asset under his control that he or she needs to prosecute 
whatever assignment he or she is given. It is a natural 
tendency.
    I keep coming back to the fact that military defense is not 
the primary priority for the country today, but we do want to 
have a system that ensures that that military commander gets 
the best support we can possibly afford to give within the 
limits of also putting No. 1 priority on terrorism. I do not 
know that you can write that into a law. I think that has to be 
ironed out by Presidents and Secretaries of Defense and 
National Intelligence Directors as to how they balance that out 
individually. But the overall national interest is to err on 
the side of giving the National Intelligence Director more 
authority rather than less.
    Senator Rockefeller. So you would come down on the idea of 
doing something about it in law rather than depend upon the 
well-meaning nature of those who protect us?
    Admiral Turner. There are well-meaning people in our 
government at all levels, but the bureaucracies tend to keep 
them from doing well-meaning things frequently.
    Senator Rockefeller. Yes. Thank you, sir.
    Mr. Woolsey. Senator Rockefeller, you may be right. The 
personalities involved here may be one issue, but I have known 
reasonably well every Secretary of Defense since Mel Laird, and 
none of them is a ``Casper Milquetoast.'' The job tends to 
attract reasonably strong-willed people and understandably so.
    I think there are three issues for the NID, and I have not 
looked into which of these needs to be sorted out in 
legislation and which could be done by, let us say, report 
language which suggests an Executive Order working with the 
White House--whatever--but it seems to me there are three 
issues.
    First is tasking; second is the power of appointment over 
the defense agencies, such as the Director of NSA; and the 
third is budget execution.
    I think with respect to tasking, the NID needs to exercise 
more authority than he or she now does and than the DCI now 
does. We need to move toward this business of taking 
intelligence consumers' judgments into account much more than 
just having these individual agencies that have these 
individual collection assets decide what to do with them. I 
think that is the first thing.
    How that is accomplished--how the NID is given that higher 
degree of authority--I have not made a careful enough study to 
know.
    With respect to appointment, I believe that it would be a 
major step up over what the DCI now have for the NID to be 
given joint appointment authority with the Secretary of Defense 
for let us say the Director of NSA or the Director of the NRO--
not all of these service appointments and perhaps not DIA. But 
I think that would work.
    With respect to budget execution, exactly where the 
appropriation goes, whether it goes to the Secretary of Defense 
or the NID, I think is less important than the fact that the 
NID needs more authority than the DCI now has over moving money 
around, reprogramming, and so forth. But I think Congresswoman 
Harman's position is the correct one, that the Secretary of 
Defense needs some type of outlet there; he needs a reclama; he 
needs the ability to say the NID has moved too much away from 
this data link that is vital to our combatant forces in such-
and-such place, and if they cannot work it out, the President 
needs to decide it.
    So I think that is a reasonable increase in authority over 
what the DCI now has in those three areas, but I do not have 
any good suggestion to the Committee about what parts of those 
need to be done by legislation and what parts can be 
accomplished otherwise.
    Senator Rockefeller. Judge Webster.
    Judge Webster. I made reference at the beginning of my 
testimony to Professor Darling's rather thick and fulsome 
account of the first 5 years. It is interesting that this issue 
that you are asking about now, he defined as how it ``raged'' 
before President Truman finally decided it.
    I would make a plea on the side of shifting the 
presumptions so that the NID is presumed to have the authority, 
and the burden is on those who want to dispute it to make the 
effort.
    The same thing follows from having a role in selecting the 
key people in the intelligence community. And I would like to 
see performance review done by the NID, because in some 
quarters, whoever writes the report card is the one who gets 
the attention, just to shift that presumption of where the 
authority is and then let the others come to legitimately 
question it--because these are human beings that we are talking 
about.
    Senator Rockefeller. Thank you, sir. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you, Senator Rockefeller. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Again, thank you for your service to our 
country and thank you for being here today.
    [The prepared statement of Senator Voinovich follows:]

                PREPARED STATEMENT OF SENATOR VOINOVICH

    Thank you, Madam Chairman, for holding this morning's hearing. I 
look forward to hearing the views of the three former Directors of 
Central Intelligence who are with us today concerning the 
recommendations of the 9/11 Commission, and I thank each of them for 
their service to our nation and for testifying before this Committee. 
Congress faces enormous challenges as we seek to reform the national 
security establishment to better protect the United States from any and 
all threats.
    While the Bush Administration has broadly accepted the two 
recommendations being considered by this Committee; the first to 
establish a National Intelligence Director and the second to establish 
a National Counterterrorism Center, there is great uncertainty at this 
point as to how these recommendations would be implemented. I hope 
these hearings will help guide this Committee as we seek to fill in the 
details.
    At the same time, we must not lose sight of the internal operations 
of the agencies and structures we seek to reform. I have many questions 
in this regard. First and foremost, are we adequately compensating our 
people in these critical national security positions? Are there enough 
employees at agencies such as the FBI which have been given new 
missions since 9/11? Is the security clearance process, which can take 
up to a year and is handled by several different agencies, organized as 
efficiently as possible? How damaging is it to our national security 
that people have to wait for months to start working in critical 
positions because they have not yet been cleared, or because agencies 
conduct their own investigations of individuals who have already been 
cleared by other agencies? And as the 9/11 Commission noted, the 
process by which the Senate approves nominees for key national security 
positions simply takes too long--it must be improved.
    I look forward to hearing the testimony of today's witnesses and 
addressing these and other questions with them. Thank you, Madam 
Chairman.

    Senator Voinovich. It is interesting that there is a 
consensus among you. Mr. Woolsey, you are talking about the 
fact that we have secular Baathists, we have Shi'ites, we have 
Islamic Sunni. I would like to refer to this as the ``fourth 
world war.'' We had the Third World War--the Cold War--and this 
is the Fourth World War. It is really important for us to 
understand that this is a different kind of war than we have 
ever fought before in this Nation's history. Would you agree 
with that, that this is a different type of war that we are not 
accustomed to?
    Mr. Woolsey. Very different in many ways. It has some more 
parallels to the Cold War, I think, Senator, than it does 
toward World War I or World War II, because we fought sometimes 
in the Cold War but not the whole time, and in the Cold War, 
eventually, ideology turned out to be extremely important. We 
won in no small measure because we convinced people like Lech 
Walesa and Vaclav Havel and Andrei Sakharov that we were on the 
same side. We have to do that with hundreds of millions of good 
and decent Muslims in the world, I think.
    Senator Voinovich. So intelligence and, I would also say, 
diplomacy has become paramount in terms of waging this fourth 
world war that we find ourselves in; would you agree with that?
    Mr. Woolsey. In a lot of ways--diplomacy of a very 
difficult sort, more difficult in a way than it was during the 
Cold War.
    Senator Voinovich. I would like to get to the issue of the 
authority of the NID. Mr. Woolsey, you were saying that you 
thought that the issue of the appointments in NSA and others, 
these intelligence agencies, should be a shared responsibility. 
Who is going to be held responsible for the director of NSA--is 
it the Secretary of Defense? Would the NID go to the Secretary 
of Defense and say, ``Whoever it is you have over there is not 
getting the job done''? Who is going to conduct performance 
evaluations? Should it be the NID?
    Mr. Woolsey. This is a somewhat complex idea, but I would 
have to say that my experience was one of very close 
collaboration with the Defense Department, and I think the NID 
and the Secretary of Defense could work this out. I think both 
should probably write performance evaluations. I think if 
either wants an individual dismissed, they would go to the 
President--it would be a Presidential appointment in many 
cases, anyway--and it would produce perhaps a conflict and a 
disagreement which the President would have to determine.
    But the way the situation works now for, say, the Director 
of NSA is that the Secretary of Defense really does the 
appointment, and if the DCI has some reason to object--and 
normally, they are not going to because this is a career 
military officer that they probably have not known or worked 
with before--the DCI can object. But in fact the Director of 
NSA believes that he reports to the Secretary of Defense, and 
that needs to get adjusted in a way so that the NID, the head 
of the Intelligence Community, has something on the order of 
half the responsibility and authority over the Director of NSA. 
Exactly how to arrange that, I know it is a somewhat different 
concept, but it seems to me to reflect reality much better than 
having the NID have full authority over the Director of NSA, 
since a huge share of what NSA does is work for battlefield 
commanders.
    Senator Voinovich. On the issue of the budget, would they 
work out the budget issue, too? In other words, the NID looks 
at the whole national intelligence budget , and says ``We are 
going to rearrange the way these things are being funded'' and 
ends up having a battle with the Secretary of Defense over the 
amount of resources that are going to be put in there?
    Mr. Woolsey. In the Executive Branch, you are always 
working on three budgets simultaneously. You are working on the 
one you are putting together to submit to OMB in the fall. You 
are working on the one that Congress is holding hearings on 
now. And you are working on the one that you are executing.
    The DCI under the current system has some substantial 
authority, at least in theory, over what is being put together 
and submitted, but in practical terms, since he has so little 
real power outside the CIA, he is sometimes listened to and can 
sometimes influence what goes on. As I said, the way I did this 
was I had a cap made up that said ``Chairman,'' and when the 
Secretary of Defense or the Deputy Secretary of Defense and I 
would co-chair meetings, if we thought we were going to have a 
disagreement, we would step out and resolve it. We kept the hat 
between us most of the time and worked on these things 
together.
    Senator Voinovich. But you would give the NID the power 
under this reorganization in terms of the budget with the 
understanding that their interpersonal relationships would have 
something to do with how it finally got worked out?
    Mr. Woolsey. Theoretically, I had more power with respect 
to the budget being assembled, and he had more power with 
respect to the budget that was being executed. In the real 
world, the DCI has rather little power over money as a whole 
outside the CIA. I think the NID needs a bit of a leg up.
    Senator Voinovich. The NID in the budgetary process would 
be working with OMB and saying, ``Hey, this is what I need to 
do to get the job done.'' So you think it would be given a 
higher priority than it might under the current situation--or 
should be given it?
    Mr. Woolsey. Well, yes. This gets very involved in the way 
the classified budget is put together. Back in the mid-nineties 
during my tenure, there was not a so-called passback to the 
Intelligence Community. The money all went back to the Defense 
Department, and frankly, I preferred it that way because I 
thought I would be hit with much deeper cuts if the 
intelligence budget were separate. I regarded the defense 
budget in those times as something of a sanctuary that would 
require that I be cut less than the big cuts I was already 
seeing.
    So during my tenure, I was delighted to be under the 
envelope of defense with respect to dealing with OMB, because I 
thought--and I think I was right--I would have gotten fewer 
cuts as part of the defense budget.
    Senator Voinovich. Under the new set-up, if we agree that 
the fourth world war is different than the Third World War, or 
the First or Second World War, it seems that there should be a 
different allocation of resources. However, you may bump into 
the typical lobbying that is done in the Defense Department for 
hardware and all the other stuff that is supported by every 
lobbyist in this country and every defense manufacturer. It 
seems to me that if we are going to have the money to get the 
job done in the diplomacy and intelligence area, we may have to 
cut back on some of the other things that we have been 
supporting here that seem to be sacrosanct, if we are going to 
be responsible in terms of these resources.
    What is your comment on that?
    Mr. Woolsey. Well, Senator, the way I see it, in the early 
1960's in the Kennedy Administration, before Vietnam, the 
country was spending about 9 percent of GDP on defense and 
intelligence together. That would be the equivalent today of an 
approximately trillion-dollar defense and intelligence budget--
on the order of double what we are spending now.
    Now, admittedly, in those days, old people were not taken 
care of through government funding, through Medicare and 
Medicaid, etc., so that domestic part of the government has 
grown. But that is a decision within society about whether to 
take care of old people in their own homes or through the 
government.
    As far as resources allocated to national security, we are 
at about half the level of burden today than we were during the 
Kennedy Administration.
    Now, I am an old Scoop Jackson Democrat--I do not mind 
spending money. I think it is fine for us to fund whatever we 
need--indeed, imperative to fund whatever we need--on national 
security, and we ought to do some decent things on the domestic 
side, too, and I am willing to pay the taxes to do it.
    Anyway, for better or for worse, those would be my 
judgments.
    Senator Voinovich. Admiral or Judge Webster, do you want to 
comment on that?
    Judge Webster. I cannot comment on that; I think I agree. 
But one thing I would like to mention, because I have not heard 
it, is that the problem today in reprogramming is enormous. 
Under existing authorities, it takes about 5 months to move 
money around in the Intelligence Community.
    Mr. Turner. No comment.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman.
    I would like to just pick up where Senator Voinovich left 
off, relative to the budget first of all. Under the current law 
as I read it, the power to develop and present the annual 
budget to the President is in the DCI, so already, the DCI does 
the developing and presenting of the budget under the existing 
law. That would presumably not change under the proposal of the 
9/11 Commission, except that there would be a new DNI--but 
putting that aside.
    Second, the issue then becomes supervising the execution of 
the defense budget. That is where the issue, it seems, becomes 
the real one. And currently, that supervising of the execution 
of that budget rests basically in the Defense Department.
    However, under the Carter Administration, as I understand 
you, Admiral Turner, that was with the DCI rather than with the 
Defense Department. Is that correct?
    Admiral Turner. Yes, sir.
    Senator Levin. Which means that with the stroke of a pen--
an executive pen, an Executive Order--that shift could go back 
to the DCI, and that does not require legislation. Would that 
be correct, Admiral?
    Admiral Turner. I believe so, yes, sir.
    Senator Levin. Because we have to sort out what requires 
legislation and what can be done by Executive Order, and that 
is a very key issue, because the difference in terms of 
execution of the budget, which includes reprogramming, is one 
which can be addressed by Executive Order, clearly, and does 
not need to be addressed through legislation, because history 
has shown that it has been addressed through Executive Order 
rather than legislation.
    Now, in terms of the intelligence failures--first, would 
all of you agree with what Admiral Turner just said?
    Mr. Woolsey. Senator Levin, I have not made a----
    Senator Levin. I am not talking about wisdom. I am talking 
about whether that can be done.
    Mr. Woolsey. I have not made a study of whether that can be 
done by Executive Order or would require legislation. This is 
kind of the arcana of budget execution. It certainly, in my 
time, was in the hands of the Defense Department. And also, 
Congresswoman Harman's bill, I think, may leave some aspect of 
execution authority in the hands of the Secretary of Defense 
but give the NID a lot more authority over reprogramming.
    These are just details of the way this works that I am a 
bit stale on.
    Senator Levin. All right, but these are critical issues.
    Mr. Woolsey. Certainly.
    Senator Levin. Judge, would you agree with Admiral Turner 
on that?
    Judge Webster. That an Executive Order can do it?
    Senator Levin. That we can go back to the Carter approach 
in terms of budget execution, which was an Executive Order 
approach. If you do not have an opinion, that is fine.
    Judge Webster. I do not have an opinion.
    Senator Levin. All right. Now, the question of execution of 
budget authority has been raised, and it is an important one 
obviously for us. The question in my mind is what is the 
relationship between that location of budget authority 
execution and the intelligence failures before September 11 and 
before Iraq. We had major intelligence failures prior to 
September 11 and prior to Iraq. The reports of the Intelligence 
Committee in the Senate showed that. The joint intelligence 
committees of the House and Senate report showed that, and 
surely, the 9/11 Commission Report showed that.
    Now, what is the relationship--do you have examples, for 
instance, from your experience, of where the issue of budget 
execution made a significant difference, because I do not see 
it in the report. I do not see in the report how the issue over 
budget execution relates to the failures which were so 
dramatically laid out by the 9/11 Commission.
    Can you help us on that? Judge Webster, we will start with 
you and go down the line.
    Judge Webster. I think you are correct, Senator. In broad 
generalities, what the 9/11 Commission Report says is that 
agencies were going their own way, and information was not 
finding itself in a place where the warning and the danger 
would be clear.
    The conclusion of the report was that the leader of the 
Intelligence Community should be held responsible and given the 
authorities to make sure that did not happen again. Now, that 
is broadly stated. So I think that is really the connection, 
and he needs to have the authorities as well as be called the 
leader.
    Senator Levin. Then, after September 11, we created the 
Terrorist Threat Integration Center, where presumably, we 
brought together all of the intelligence so that we did not 
have intelligence that was not shared, and we could connect the 
dots. And I think that is an important change, and I am not 
sure that this new center which is being proposed, the National 
Counterterrorist Center, does much different in terms of 
coordination than we have already done with TTIC, except for 
these additional authorities which are handed to the center.
    But my question is the budget execution issue. Do you see 
any relationship between where that was located prior to 
September 11 or prior to Iraq and the failure of intelligence 
prior to September 11 and prior to Iraq?
    Mr. Woolsey.
    Mr. Woolsey. I do not really see that there is a 
substantial relationship, Senator Levin. There were failures 
within the foreign Intelligence Community, but I do not see 
those as principally having been communication between elements 
in the foreign intelligence community--some were, but most were 
not. Most of the failures were legal limitations such as Rule 
6(e) of the Federal Rules of Criminal Procedure that prohibited 
the FBI, if they obtained material pursuant to grand jury 
subpoena, from sharing it with the Intelligence Community. 
There were policy limitations, some within the Justice 
Department. There were policies that had been adopted, for 
example, in late 1995--and I do not hesitate to stress that I 
resigned in early 1995--in the CIA to limit the ability to 
penetrate groups by recruiting people with violence in their 
background. There were FAA policies about cooperating with 
hijackers.
    There were a lot of things that contributed to this, but I 
do not see that the heart of the matter is this budget 
execution authority vis-a-vis defense and DCI now, or perhaps 
in NID in the future.
    Senator Levin. Can I interrupt you there, because I have 
got to get to Admiral Turner.
    Mr. Woolsey. Yes.
    Senator Levin. Do you have anything more to add on that, 
Admiral Turner?
    Admiral Turner. Very quickly, I think there is a 
connection, Senator.
    Senator Levin. OK.
    Admiral Turner. We are now saying that we did not have 
enough HUMINT, and that was one of the reasons we failed. Well, 
if the NID has budget execution authority, he or she could move 
money into HUMINT or SIGINT or wherever.
    Senator Levin. Was there any effort to do that which was 
thwarted?
    Admiral Turner. I do not know.
    Senator Levin. All right. The final question--and I think, 
Judge, you have commented on this issue. The 9/11 Commission 
recommends establishing the National Intelligence Director in 
the Executive Office of the President. My own concern about 
that is that the individual then would be so close to the 
President and his policy advisors that it could make it even 
more difficult for the National Intelligence Director to be 
independent of the policy pressures of the White House, thus 
increasing the risk of intelligence being shaped to support 
policy, as appears to have been done prior to the war in Iraq, 
rather than keeping the intelligence objective and independent, 
and also--and this part has not really been discussed publicly 
as much--that it might make it more likely for executive 
privilege to be invoked or suggested, thus making effective 
congressional oversight more difficult.
    Judge, you have commented on this issue in your testimony, 
and you have indicated that you believe that it is important in 
order to avoid the reality or the perception of intelligence 
``being framed, read `spun' '' to support a foreign policy of 
the administration, that position be outside of the Executive 
Office of the President.
    I need a quick answer from the other two witnesses. Do you 
believe that the National Intelligence Director should be 
inside or outside the Executive Office of the President?
    Mr. Woolsey--inside or outside--because I am out of time.
    Mr. Woolsey. I think the key thing is that they report to 
the President. I care much less about whether they are inside 
or outside the Executive Office than that it be an individual 
who is willing to be the skunk at the garden party.
    Senator Levin. Thank you. Admiral Turner.
    Admiral Turner. I agree wholly with Jim.
    Senator Levin. Thank you both for very helpful answers.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman. Thank you, 
gentlemen, for extraordinary testimony, and thank you for your 
service to our country.
    Director Woolsey, you raised an issue about the focus of 
this report, and the reason I want to raise this is whatever we 
do, whatever we put in place now, has to suffice not just to 
respond to what happened yesterday but to what may happen 
tomorrow. It is kind of like you take a poll, and you are 
always getting somebody's opinion on yesterday, yet the issue 
may be tomorrow.
    We know that Hezbollah is a terrorist organization that has 
missile capacity. We know that there are deep concerns about 
the Iranians developing nuclear capacity and what they will do 
with that. We have deep concerns about Syria funding terrorism.
    So my concern is as we look at this report, and we look at 
the concept of a National Intelligence Director, and we look at 
the Counterterrorism Center, I will quote a comment that 
appeared in a series of thoughts in the August 1 edition of The 
Washington Post, asking a number of folks--Admiral Turner, I 
think you responded to this--for their reflections on where do 
we go with the report. This comment came from John Deutsch, 
former Director of Central Intelligence from 1995 to 1996.
    He noted that, ``Moreover, the proposal for the civilian-
led, unified, joint command for counterterrorism works better 
for counterterrorism than for managing intelligence regarding 
other security issues that may arise in the Taiwan Straits, in 
the Palestine-Israel conflict, or the Indian subcontinent.''
    So my question becomes for all of you gentlemen--the 
structures that we are talking about now that are reflected in 
this 9/11 Commission Report--a National Intelligence Director, 
a Joint Counterterrorism Center--do you have a sense of 
confidence that this structure relates to some of the other 
concerns about terrorism, some of the other concerns about 
Hezbollah, about Iran, about Syria?
    That would be one question, and the second is if not, if we 
are missing something in this report and these recommendations 
to deal with those emerging issues, what would it be?
    Admiral Webster--excuse me--Judge Webster.
    Judge Webster. Thank you. I was never more than lieutenant, 
senior grade, sir.
    The Intelligence Community leader has as his responsibility 
knowing what problems there are in the world, not just what is 
on the mind of a department head or on what seems to be for the 
moment a particular problem, and strategically, what problems 
are out there. I mentioned ``have'' and ``have not'' countries 
can create wars. We need to be on the alert for that, and we 
should not give up that responsibility because of the 
inadequacy of the authority of the community leader. That is my 
first point on that. Maybe I can come back.
    Senator Coleman. Director Woolsey.
    Mr. Woolsey. Senator Coleman, I would say that, yes, 
tomorrow's threats may be very unlike this one. We could have a 
crisis in the Taiwan Straits and be looking at a serious 
confrontation with China, for example. And we do not want to 
structure our intelligence in such a way that the Secretary of 
Defense's ability to have a major hand in our intelligence 
resources is taken away.
    I do not think the Secretary of Defense is the main enemy 
here as we try to figure out what went wrong before September 
11 and fix it. And I also think that the 9/11 Commission's 
Report, in its recommendations and really in its discussion, 
has almost nothing to say about threats like Hezbollah in Iran 
and Syria. That was not its focus. Its focus was al Qaeda's 
attack on September 11. And I think we want to be very careful 
that we not structure the Intelligence Community and its 
reforms in such a way as to fight only that war. We have a lot 
of worldwide responsibilities, and the Department of Defense is 
a major player in how we respond.
    Senator Coleman. My hope would be--and that is my concern--
Chairman Roberts talked about wanting to make sure we did not 
do something that had unintended consequences. There are other 
threats out there, and I think, Director Woolsey, you said that 
you have been through five of these commissions, and if, God 
forbid, something terrible happens, there is going to be a 
sixth or seventh commission. So if there is something that, as 
we look to the future, we do here that you think would limit 
our ability to deal with those responses, I would hope that you 
would bring it to our attention and put it in the record.
    Admiral Turner.
    Admiral Turner. I am a little concerned, Senator, at the 
diagram I see in the report where, on the one hand, we have a 
National Counterterrorism Center, and then, down at the bottom 
right-hand corner of the chart, we have a whole group of 
individual threat centers--I forget their exact title. I worry 
that we are going to find that those are the only places we are 
focusing our intelligence effort, and that there will be 
another one we'll develop that we have not thought of. I am 
nervous about this. I have not fully understood those charts.
    Senator Coleman. I share your nervousness. One of the 
issues that I have raised in the past is, being a former chief 
executive and mayor, you really want and need that skunk at the 
party; you need some dissenting voices. Is it your sense--and I 
would appreciate all of your responses--that the structure that 
is being proposed here with the National Intelligence Director 
and with the Counterterrorism Center that we have--is that 
going to allow for dissenting voices to get to the President, 
to get to the Commander in Chief?
    Director Woolsey.
    Mr. Woolsey. Senator Coleman, I think that is largely a 
matter of individual propensity. I have known the men on my 
right and left for many years, each of them, and they both call 
it absolutely straight. I do not think when they were in the 
job, or now, or ever have they been in a position of trying to 
tell people on something important what they want to hear. And 
I think that comes down not so much to the organizational 
relationship--even whether somebody is in the Cabinet, although 
I generally agree with Bill on keeping the NID out of the 
Cabinet--I think the key thing is the individual. You have to 
have people who do not want too much to be liked.
    Senator Coleman. Admiral Turner.
    Admiral Turner. I would agree with Jim on that very much.
    Senator Coleman. Judge Webster.
    Judge Webster. I agree.
    Senator Coleman. The question about the relationship with 
the President--and we have had discussion--I take it that all 
of you gentlemen agree that this position should not be in the 
Cabinet. I think Judge Webster said that, and Admiral Turner is 
shaking his head.
    Judge Webster. Yes.
    Admiral Turner. Yes.
    Mr. Woolsey. Yes.
    Senator Coleman. Help me understand how we structure this. 
There has been some discussion about whether it is in the 
Office or out. The bottom line is that the ability to do the 
job depends on the confidence of the President. I take it we 
all agree on that. Is there any disagreement with that?
    Judge Webster. I agree.
    Mr. Woolsey. I agree.
    Admiral Turner. Agreed.
    Senator Coleman. So this issue of having terms beyond the 
President's term, I think from my perspective, would not be a 
good idea if your power is going to depend on your relationship 
with the President. Can we structure that, or is this something 
that we have to leave to--we elect a President, and they are 
going to lead us in the direction--Director Woolsey, perhaps in 
a direction that you as head of intelligence say we should not 
go, but our country is going to go where the President says we 
go. Is this something that we can structure, or do we simply 
have to leave it to the--not the whims, but the realities of 
human relationships and strength coming from that relationship.
    Mr. Woolsey. I think there is no guarantee, Senator 
Coleman, and I think there should not be any greater difficulty 
in having a NID who is willing to speak independently and to 
reflect his analysts' views and his own views than there is for 
having a DCI. And generally, over the years, I think DCIs have 
called it pretty straight, sometimes to the extent of not 
pleasing the boss. But I do not see how these changes make that 
problem any harder than it is now.
    Judge Webster. I agree. I think that anything you can do, 
anything in the culture that gives the leadership in the 
Intelligence Community the intellectual independence to call it 
the way it is seen by the experts and the analysts--setting 
forth alternative points of view if necessary. Their job is not 
to influence a policy or to make a policy happen. And again and 
again I repeated to everyone, said it publicly, said it to the 
Cabinet, we will do our very best to give you the best 
intelligence and analysis of that intelligence that we can 
have. Then, it is up to you. You can use it, you can ignore it, 
you can tear it up and throw it again. The one thing you cannot 
do or ask us to do is change it. And I think we have held to 
that. Then, the job of defining the policy that flows from that 
is up to other people.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you very much, Madam Chairman.
    I suppose the questions I am about to ask reflect the fact 
that I have taken a lot more history courses than management 
courses, but I hope you will bear with me.
    There is a legendary saloon keeper in Chicago named Paddy 
Bauler. He ran an old saloon and was kind of a ward boss. So 
they had a reform candidate running against him, and they went 
to Paddy Bauler and asked him, ``What do you think about this 
guy running against you?''
    He said, ``This city ain't ready for reform.'' He was 
right.
    The question is whether the intelligence community is ready 
for reform. And I think the 9/11 Commission has shaken us up, 
and they should. They did a great job, did great service to 
this country. But if we are often accused of being guilty of 
fighting the last war, it appears that in the case for 
reforming the Intelligence Community, we are basing it on the 
second last war, because since September 11, we have had 
another event occur, and that was the invasion of Iraq. I think 
the invasion of Iraq made it clear to us in 2002--after, I 
should say, our vote in 2002, our invasion in 2003--that 
intelligence failed us a second time.
    I wonder what an Iraq invasion intelligence commission's 
recommendations might be a year later, after September 11; 
would they be any different? Certainly, I think it calls into 
question whether there is any power of self-healing within the 
Intelligence Community. We failed on September 11. The 
Intelligence Community did not do as good a job as it should 
have done. A year later, they were tested again and, by the 
report of the Senate Intelligence Committee, they failed again. 
On September 11, they had to look at the whole world and figure 
out who our enemy was, and they did not get it--they did not 
get it right. When it came to the invasion of Iraq, they had to 
look at one country and figure out what the danger was, and 
they did not get that right, either, which brings me to this 
point, and that is whether or not, when we talk about this 
reform process here, whether changing nameplates and changing 
e-mail addresses is really getting to the heart of the problem.
    Judge Webster, 13-year-old mainframes at the FBI--I have 
been screaming bloody murder about this for 3 years--why don't 
we have a Manhattan Project on intelligence technology? Why 
aren't we gathering the best and brightest in the academic and 
the private sectors and the public sector, breaking through all 
of the Federal red tape, and building a computer system to 
fight the war on terror? We have not even decided to try that 
yet--and yet we are talking about moving nameplates and who has 
budgetary authority and whether they are going to be part of 
the Cabinet.
    Second, Mr. Woolsey, thank you for joining us again. I am 
still troubled by your repeated comments at these hearings that 
it sometimes is not safe for these agencies to share 
information. There may just be another spy in one of these 
agencies, you said. How are you going to get trusted 
communication that the 9/11 Commission calls for if you start 
with that premise--if it is not safe for the FAA to tell the 
FBI about dangerous people; if it is not safe for the border 
crossing guards to take fingerprints and share them with the 
FBI?
    So my point is this--going back to history as opposed to 
management--is the Intelligence Community ready for reform? If 
it is not ready for reform, are we kidding ourselves here? Are 
we going through a political exercise moving nameplates around 
that really will not achieve the fundamental reform that 
Admiral Turner referred to when the President of the United 
States called him in and said, ``We are going to do it 
differently, and you are in charge of doing it differently''? 
That is what bothers me.
    Would anybody like to comment?
    Mr. Woolsey. Senator Durbin, two points. First of all, 
about pre-Iraq and a commission on that. In a sense, there is 
one. The commission on the WMD estimates, co-chaired, I 
believe, by former Senator Robb and Judge Silberman, is holding 
hearings. I am testifying before them, I think, next week on 
those issues. And it is a complicated set of issues, but 
nonetheless, just as there were about five post-Pearl Harbor 
commissions, there will doubtless be more than one post-9/11 
and post-Iraq commission. It seems to be kind of a constant 
here in Washington.
    I think on the sharing issue, the point I want to make is 
that the 9/11 Commission essentially said that ``need to 
share'' should replace ``need to know.'' And it has a 
mechanism, a kind of an internet, a trusted information 
internet. My written testimony is more thorough than what I 
said here at the table on that point, but the key issue seems 
to me to be that we should not give up on ``need to know.'' We 
ought to try to continually adjust who needs to know what. We 
ought to make sure that a person, regardless of what agency 
they are in--if they are a DIA analyst, and they are one of the 
two or three best people in government to look at a particular 
issue, they ought to be given access to a CIA directorate of 
operations blue border report, as long as they are trusted and 
security-cleared and so forth.
    I am not suggesting that we should stay within the 
stovepipes. It is the numbers that bother me, because insofar 
as one widely disseminates material, one could have a Robert 
Hanssen, who turned out to be a pretty clever computer 
operator----
    Senator Durbin. Mr. Woolsey, Governor Kean and Congressman 
Hamilton sat in those chairs and told us we have got to be more 
creative, we have got to be more imaginative. We cannot keep 
putting things in these neat little drawers of expectations. We 
have got to think more broadly on the war on terrorism. And 
what you are arguing for, even though it may be stovepipes with 
a few holes in it, is to make sure that the holes are directed 
in the right ways.
    How do you get creativity and imagination out of that?
    Mr. Woolsey. Well, Senator, the victors in World War II 
used intelligence very creatively, and one way they did so, 
particularly with respect to the very sensitive signals 
intercepts and decrypting that we were doing of the Japanese 
codes and the British in Enigma were doing of the German codes, 
was to radically restrict the numbers of people who did the 
analysis and had exposure to those technologies but to make 
them the very best.
    Whenever I see, as I saw back in 1998, headlines in the 
press saying we are listening to bin Laden's satellite 
telephones, and we know immediately thereafter he stops using 
them----
    Senator Durbin. That was a leaked story in The Washington 
Times which killed the source for us.
    Mr. Woolsey. It strikes me that once I see leaks like that, 
I think there are too many blabbermouths in the government who 
are being given access to signals intelligence. The person who 
leaked that, I think, has as much blood on his or her hands as 
anyone with respect to September 11.
    So it is impossible to always disseminate only to the right 
people, and I do think we need to disseminate across agency 
lines, but we also, I think, should not think that we are going 
to do something effective just by broadcasting and sharing very 
widely without attention to precisely whom this sharing is 
going to. That is my only point.
    Senator Durbin. I have only a few seconds left, but I would 
really like it if either of the other two witnesses could 
comment, Madam Chairman, on this whole question about whether 
we can create a climate of reform in agencies which do not 
appear to be open to that climate.
    Admiral Turner. Senator, I tried to say in my comments that 
the biggest problem today is how we analyze these situations. 
Henry Kissinger has a piece in The Washington Post today saying 
analysis, interpretation, is the real problem here. Changing 
these boxes will help some, but it is not the solution.
    The solution is with you. Are you interrogating the 
intelligence committees?
    Senator Durbin. I am on that, too.
    Admiral Turner. OK, sir. Are you interrogating these people 
when they come up and finding out if they really can back up 
what they are saying.
    Senator Durbin. Admiral, we have 22 staff members on the 
Senate Intelligence Committee shared by the members for 15 
different intelligence agencies. I think you can answer that 
question yourself. We cannot get into the level of depth that 
we should with the current situation on Capitol Hill. The 9/11 
Commission is right--we have failed at oversight. We have to 
accept some responsibility here.
    Admiral Turner. And there is the PFIAB and the whole 
bureaucratic structure. I mean, are the Secretaries of State 
asking these questions? Are the Secretaries of Defense asking 
these questions? We have just got to encourage a much more 
inquiring approach to intelligence.
    Judge Webster. Are we ready? I think we are always ready if 
a good reason is presented and a good objective is understood, 
and then, people will go to work and find it. That is true in 
the FBI, it is true in the CIA, and it is true in the other 
elements of the Intelligence Community.
    But when we think about how intelligence is collected, as 
Admiral Turner pointed out, and then we think what do we do 
with that intelligence, where does it go--using my FBI example, 
there is an extraordinary amount of information that is in 
those files. Getting it out depends on architecture of the 
system, and the architecture of the system had something else 
in mind when it was created.
    I do not think it needs a Manhattan Project, but it sure 
needs some attention and a willingness to invest in what 
creates that capability to share but share with protection.
    Senator Durbin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Senator Durbin, who was the saloon keeper 
in Chicago that you spoke of?
    Senator Durbin. Paddy Bauler.
    Senator Carper. Paddy Bauler. And Paddy Bauler said, ``This 
city ain't ready for reform''?
    Senator Durbin. Yes.
    Senator Carper. One could also look at the intelligence 
community and conclude that, given the unanimous 
recommendations of the 9/11 Commission, the Select Committee on 
Intelligence's unanimous recommendations, the countless 
commissions that have existed over the last 30 or 40 years 
recommending changes, maybe the Intelligence Community ``ain't 
ready for reform,'' either.
    I would go a bit further and say my guess is that the 
committees on which we serve here in the Senate and in the 
House ``ain't ready for reform.''
    You have testified since the 1970's, some of you, before 
countless committees of the House and Senate, and you have a 
pretty good idea how this place works and sometimes does not 
work too well. And I am not going to ask you to help us today 
think through how we might want to restructure our committees 
in the House or the Senate, but I do want to remind us all that 
in the 9/11 Commission Report, while there are a lot of 
recommendations with respect to changes in the Executive 
Branch, there are quite a few recommendations with respect to 
how we operate here on our side of this government.
    There are discussions and suggestions that we wait before 
we change our Committee structure, until we figure out how we 
are going to restructure the Executive Branch, before we move 
forward with the 9/11 Commission's intelligence 
recommendations. Setting aside what responsibilities we invest 
in this director with respect to budget and personnel and so 
forth, should we be thinking this year about making changes in 
our approach with respect to oversight, the number of 
committees that we have?
    I think with respect to the Department of Homeland Security 
alone there are, I have heard, as many as 80 committees and 
subcommittees that have some piece of jurisdiction over 
homeland security.
    What would be your recommendations with respect to 
sequencing for structural changes on the legislative side?
    Admiral Turner. My view is this all ought to go ahead 
concurrently. I do not see why changing the congressional 
structure needs to wait until you decide whether it is a DCI or 
a NID. It is not all that big a change, in my opinion. And in 
any event, your structure needs change just as the rest of it 
does. We ought to get on with it.
    I happen to have been the DCI who had to be there when the 
committees were formed--actually, not the Senate committee--I 
was 6 months late--but I was really the DCI who had to figure 
out how we adjusted to dealing with the Congress, because the 
Intelligence Community had almost no contact I believe before 
that.
    I must say that in looking back on it, I am disappointed in 
the Congress' performance over these many years and the things 
that have gotten by, like Iran-Contra. I think it is really 
time for an introspection by the Congress. Your role is so 
vital here in trying, within the limitations of the size of 
your staffs and all, to introduce a real inquisitiveness into 
this situation as to whether they are looking at all the 
aspects of it and not getting ``group-thinked.''
    Senator Carper. Thank you, Admiral Turner. Judge Webster.
    Judge Webster. Senator, when we talk about completing the 
dots, what about those 80 committees? How many dots failed to 
get completed because of the spread in responsibility and 
authority throughout the Congress? And how much better might it 
have been if this Committee or the SSCI had full knowledge of 
all the regulation that was going on? It is an argument for 
consolidation, just as we are hearing that the Intelligence 
Committee needs to consolidate and control its information.
    Senator Carper. Thank you. Mr. Woolsey.
    Mr. Woolsey. Senator, I come at this from a particular 
perspective. In the early seventies, when I was still in my 
twenties, I was General Counsel to the Senate Armed Services 
Committee for Senator Stennis, and one other staff member and I 
together with one Appropriations Committee staffer were the 
three cleared staffers in the Senate that worked on the 
intelligence budget, among other things--we all had other 
duties as well.
    When I returned some 20 years later as DCI to testify 
before the Congress on intelligence and realized I was dealing 
with four committees, a substantial number of staffers--for 
example, several of my many trips to Capitol Hill in 1993 were 
to try to turn around the decision of the Senate Select 
Committee's expert on satellite design, because he had a 
different idea about the way satellites should be designed than 
our experts in the National Reconnaissance Office--I came to 
the view that some consolidation with respect to oversight on 
Capitol Hill would be a pretty good idea. And I am pleased that 
the Commission recommended it. I think far and away the best 
approach would be a single committee, a joint committee along 
the lines of the old Joint Atomic Energy Committee. I do not 
think that the appropriations process, at least in my 
experience, is broken, and I do not see anything particularly 
necessary to fix it.
    But I think the biggest problem is the time limitation, the 
term limitation, on the members of the House and Senate Select 
Committees, because it really helps a lot to have members of 
the committees who have seen issues come around again and 
again. They can provide an institutional memory the way the 
members of a number of other congressional committees do, 
rather than having to be educated afresh with respect to what 
this satellite does or that NSA program does every time one 
comes before them.
    So I do think that getting rid of term limits and, 
hopefully, having a single committee for authorization would be 
very positive steps and, like Stan and Bill, I do not think it 
needs to await whether you have a NID or a DCI.
    Senator Carper. Good. Thanks.
    I would just say to you, Madam Chairman, and to my friend 
and colleague Senator Lieberman, this has been an extraordinary 
panel. I have sat here, and I have learned a lot, but I have 
also been struck by how fortunate we are as Americans that each 
of you has served our country and still does. You make me 
proud, and I am sure I speak for all of us in saying that.
    One of the values of having a diverse panel like this, one 
made up of people with rich experience, is to have them tell us 
at the end of the hearing where they agree, where they see the 
consensus, because we can go in a million different directions 
coming out of these hearings. But where do you see consensus 
among yourselves that you would really urgently urge us to 
pursue?
    Admiral Turner. I think it is empowering somebody to run a 
roughly $40 billion a year operation. We just do not have that, 
and we need to have it--a CEO. So the real issue is just how 
much authority you give that CEO and still protect the 
Department of Defense. And I, as a military officer, would err 
on the side of giving it to the National Intelligence Director.
    Mr. Woolsey. And I, as a lawyer, now a management 
consultant, who only spent 2 years in the uniformed military, 
would err a little bit more on the side of protecting the 
interests of the Secretary of Defense. But generally speaking, 
I think Stan and Bill and I are headed in the same direction, 
and I would agree with establishing the NID, I would agree with 
enhancing their authority over tasking, budget, and personnel, 
but I would like to essentially require a collaborative 
relationship between that individual and the Secretary of 
Defense over that some 80 percent of the national intelligence 
programs.
    Senator Carper. Judge Webster.
    Judge Webster. I do not have much to add except that giving 
the intelligence leader, whatever he may turn out to be, the 
kind of authorities that he is thought to have but really does 
not and making them work in that way, as--Jim calls it an 
adjustment--I would say shifting the initiative, resumption of 
authority--all of those things can only work for a more 
effective Intelligence Community.
    Senator Carper. Thanks. That was great.
    Admiral Turner. Could I add one point? I do not worry about 
the Defense Department much because it is so powerful. It has 
all kinds of ways of protecting its interests, and will.
    Senator Carper. Thanks for that clarification and for your 
excellent testimony.
    Chairman Collins. Thank you, Senator Carper.
    And last but not least, the ever patient Senator from 
Minnesota, Senator Dayton. Thank you for staying.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    I have moved from 100th in seniority to 89th, and it is not 
at all clear to me exactly what difference that makes in the 
scheme of things--except that I guess I get to be in the same 
time zone as the Chairman as opposed to being off the deep end 
here.
    It is an excellent hearing--I would say the same thing--and 
very worthwhile. I thank you all for your service and also your 
expertise here.
    To paraphrase Senator Ben Nelson in the Senate, if it has 
not been asked by everyone, it has not been asked, and I am not 
sure what is really left here.
    We talk a lot at the top of organizations. What about in 
the midsections and so forth? These eight various entities 
under the Department of Defense. Each branch--Marines, Air 
Force, Navy, Army--has its own separate intelligence. Are we 
making more of these 15 different entities' or agencies' 
dispersion than it really involves, or are we talking about 
very separate entities here that ought to be consolidated, 
merged, in order to be more efficient?
    Admiral Turner. Twenty years ago, I wrote a piece in The 
Washington Post that recommended removing Army, Navy, Air 
Force, Marine Corps, and Coast Guard, from the national 
Intelligence Community. Their job is tactical. Navy 
intelligence, for instance, does not need to inform the chief 
of the Navy about the strategic picture, what is going on in 
the rest of the world; he or she has the Defense Intelligence 
Agency to provide all that to him or her. I think we ought to 
hive them off and put them into the tactical field; let them 
know that is where they stay. They should not be bothering to 
study the strategic picture anyway. We have too much 
duplication there.
    Mr. Woolsey. I think over the years, at least as of the 
time that I was DCI 9 years ago, the roles and functions of the 
military service intelligence operations have shrunk and 
consolidated. I think, although their membership on some bodies 
may be a bit out-of-date, their real function and what they 
really spend their time on is material that is directly and 
immediately relevant to their own service. Also, people add up 
all the numbers, but the State Department Bureau of 
Intelligence and Research generally does a good job--it has 100 
or so analysts working for the Secretary of State. There are 
several of these agencies that are not large and I think do not 
create any particular problem or confusion. The big ones with 
respect to money, other than the CIA, are the National Security 
Agency, the National Reconnaissance Office, the National 
Geospatial Intelligence Agency, and the Defense Intelligence 
Agency. And each of those has an important function. It is not 
going to be that hard for the NID to deconflict them. I do not 
think it is necessary to have any massive reform of them. I 
think there are some adjustments and changes that can be made, 
and I think the NID, working with a Secretary of Defense, can 
do it.
    To my mind, the hard problem here is melding domestic and 
foreign intelligence on the terrorist threat. That is new; it 
is tough. It gets into civil liberties issues, sometimes real 
civil liberties issues, sometimes ones that are perceived to be 
such. To my mind, that is why we need to move to a NID, so he 
or she can coordinate and pull together what is happening 
domestically with respect to terrorist groups, embassies here 
that might directly or indirectly help fund terrorist-friendly 
groups and so on, on the one hand, and foreign intelligence 
about what is going on overseas on the other.
    It is the foreign-domestic lash-up that seems to me to be 
right at the heart of the new NID's job, and it is one of the 
reasons why I keep coming back to the fact that I do not think 
the Secretary of Defense is the main problem here. I think we 
ought to just work something that the Defense Department can 
live with, and that is going to work. It works reasonably well 
now. I think the big problem is in this new world of having to 
look at foreign and domestic together.
    Senator Dayton. The four entities you mentioned, other than 
the CIA, are within the Department of Defense. So you have 
those four entities, and then you have the CIA, and then you 
have the domestic side, where I assume you are talking about 
primarily the FBI or some of these others--again, we have 
Homeland Security, Treasury, and Energy. Again, what are the 
big entities here--are we talking about the FBI, the CIA, the 
Department of Defense, and these four subsidiaries under them? 
Going back to your management expertise, how do you pull this 
together? How do you have somebody who is NID who is then 
directing four subsidiaries under the Secretary of Defense?
    Mr. Woolsey. Well, they have different functions. The NRO 
designs, launches and operates the satellites. The National 
Geospatial Intelligence Agency takes that data and makes maps 
and photos and integrates it and gets it to the combattant 
forces. NSA does signals intercepts and decryption.
    There are areas where they need to work together, but it is 
not as if you have a lot of people actually doing the same 
thing.
    Senator Dayton. But whom do they report to? Are you saying 
they report to the new NID? Then, why are they in the 
Department of Defense?
    Mr. Woolsey. They have grown up--NSA was originally a 
Defense Department agency. The National Reconnaissance Office 
for many years was, and still in a lot of ways is, a joint 
venture, essentially, between the CIA and the Department of 
Defense. The National Geospatial Intelligence Agency grows out 
of a merger of the Defense Mapping Agency and the CIA people 
who were doing photo interpretation--and my successor, John 
Deutch, made that a Defense Agency. The Defense Intelligence 
Agency has grown up over time with varied jobs, but it is not 
really duplicative. For example, they manage the attaches; they 
run certain specialized collection operations with different 
types of aircraft and so forth.
    So these different agencies, the defense ones, really 
report, for all practical purposes, to the Secretary of 
Defense. The DCI under the current system can have some 
influence over the direction they go, but I think not enough to 
really pull them together in the way that you are suggesting 
they should be pulled together.
    I think the Secretary of Defense and the NID, working 
together, could get these rationalized fine. I do not think it 
is the major problem. I think the major problem is domestic and 
foreign, pulling that together.
    Senator Dayton. Is the way Admiral Turner described the 
arrangement under President Carter going to do it here? Is that 
what we are talking about here, where that one person, whether 
by fiat or whatever, has that authority, then, despite being 
out of the organizational chart loop--is just inserted and 
told, OK, you are going to run the show?
    Mr. Woolsey. I think the big problem is not necessarily 
that one needs to move the budget execution authority. The big 
problem is that one needs to radically simplify and enhance the 
role of the DCI under the current system, or the NID under a 
new one, for reprogramming.
    I think Bill Webster is right on the money when he said, 
literally and figuratively, that it is almost impossible now, 
and there are massive delays involved, in a NID--or a DCI 
today--moving money from one of these programs to another. The 
Secretary of Defense needs to be heard and be able to reclama 
that to the President if need be. But you need more ability to 
reprogram. That is the flexibility that, I think, a NID needs 
that a DCI does not really have.
    Senator Dayton. My time is up. Thank you very much, Madam 
Chairman, for an excellent hearing.
    Thank you all again.
    Chairman Collins. Thank you. I want to thank our witnesses 
for being with us today. Each of you added a great deal to our 
consideration of these important issues.
    We have a heavy responsibility to produce a reform bill and 
to do so in a relatively short amount of time, and being able 
to call on people with your experience, expertise, and judgment 
certainly facilitates our task. I hope we can continue to call 
upon you during our deliberations, and I thank you very much 
for being here today.
    The hearing record will remain open for 5 days.
    I want to thank my colleagues again for their efforts to be 
here. I think it is a sign not only of the compelling testimony 
that we have, but the importance of our task, that so many 
Members have come back from their home States and have stayed 
throughout the hearing. So I thank you.
    Senator Lieberman, did you have any closing comments?
    Senator Lieberman. Thanks, Madam Chairman.
    Just to join you in thanking the three witnesses. This has 
been a very valuable hearing. We have actually learned 
something from you, and we appreciate it. [Laughter.]
    Chairman Collins. I find that less shocking than does my 
Ranking Member, Senator Lieberman.
    Senator Lieberman. Well, it may come more at other hearings 
than on you, but anyway, I appreciate it. When I called you 
``three wise men'' at the beginning, you have not let us down.
    I think it is very important that the three of you have in 
different ways said that the status quo is no longer acceptable 
with regard to the Intelligence Community. You are all for a 
stronger National Intelligence Director. There may be some 
disagreement about the details.
    Admiral Turner, your story from the Carter Administration 
was fascinating to me, and it does show that what a lot of us 
are calling for could be done without statute change. On the 
other hand, a statute is permanent and does set a standard, so 
we need to act quickly.
    The final thing I would say is that I agree with Mr. 
Woolsey that we have got to stop ever using the word ``czar'' 
to describe a strengthening of position, and for the moment, I 
like your comment that the NID is meant to be a CEO, it is 
meant to be a chief executive officer.
    Thank you, Madam Chairman.
    Senator Dayton. Madam Chairman.
    Chairman Collins. Yes, Senator Dayton.
    Senator Dayton. Tomorrow morning, I know you have made some 
considerable effort to reconcile your timetable with that of 
the other committees on which we both serve. What is your 
intention tomorrow with regard to the witnesses and 
proceedings, because the next committee starts, I think, an 
hour and 15 minutes later.
    Chairman Collins. Which is highly unfortunate. We have 
changed our hearing time twice to accommodate the Armed 
Services Committee, and then, unfortunately, the Secretary had 
an appointment that he could not change.
    Our hearing will begin at 9 o'clock now, and I would 
encourage Members who are on both committees to just go back 
and forth.
    We will be hearing from a very compelling panel of family 
witnesses, those who lost loved ones on September 11. As they 
were the driving force behind the creation of the Commission, 
and they have followed its work very closely, so I think it is 
an important hearing, but I certainly understand that Members 
are going to have a lot of conflicts--but we will begin at 9 
o'clock.
    Senator Dayton. Which is why I regret that. I guess I would 
just respectfully ask if we could have the opportunity to have 
the panel begin its remarks as soon as is practical tomorrow 
morning.
    Chairman Collins. We will.
    Senator Dayton. That would accommodate those of us who do 
need to be at both simultaneously.
    Chairman Collins. Exactly.
    Senator Dayton. Thank you.
    Chairman Collins. That is why we moved it up to 9 o'clock. 
Senator Voinovich.
    Senator Voinovich. We are talking about moving very quickly 
on this whole issue. The statistic that Congress was in session 
195 days, and Mr. Woolsey was on the Hill 205 of those days 
testifying indicates----
    Mr. Woolsey. Some of those were meetings.
    Senator Voinovich [continuing]. Meetings--indicates that we 
ought to move as quickly as we possibly can to shape up our 
shop. In other words, we ought to have this on both tracks, and 
I would recommend to you and also to Senator Lieberman, and to 
our leadership, that they ought to get on with this whole 
issue, because we cannot keep going the way that we are going. 
This whole Committee structure is not put together in a way to 
respond to the threats that we have today, and it is incumbent 
on us to fix it.
    Chairman Collins. I think you are absolutely right.
    Senator Lieberman and I have been assigned the 
reorganization of the Executive Branch, not the Legislative 
Branch, but I know that our Senate leaders are moving forward 
with that vital recommendation as well.
    And you are certainly correct that Mr. Woolsey's testimony 
about the number of commitments on the Hill that he had to 
answer--certainly, while oversight is very important, we ought 
to be able to do it in a more efficient manner so that we are 
not taking up all of the Executive Branch's time testifying 
before Congress.
    So thank you for those comments as well.
    Thank you. This hearing is adjourned.
    [Whereupon, at 12:40 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5507.014

[GRAPHIC] [TIFF OMITTED] T5507.015

[GRAPHIC] [TIFF OMITTED] T5507.016

[GRAPHIC] [TIFF OMITTED] T5507.017

[GRAPHIC] [TIFF OMITTED] T5507.018

[GRAPHIC] [TIFF OMITTED] T5507.019

[GRAPHIC] [TIFF OMITTED] T5507.020

[GRAPHIC] [TIFF OMITTED] T5507.021

[GRAPHIC] [TIFF OMITTED] T5507.022

[GRAPHIC] [TIFF OMITTED] T5507.023

[GRAPHIC] [TIFF OMITTED] T5507.024

[GRAPHIC] [TIFF OMITTED] T5507.025

[GRAPHIC] [TIFF OMITTED] T5507.026

[GRAPHIC] [TIFF OMITTED] T5507.027

[GRAPHIC] [TIFF OMITTED] T5507.028

[GRAPHIC] [TIFF OMITTED] T5507.029

[GRAPHIC] [TIFF OMITTED] T5507.030

[GRAPHIC] [TIFF OMITTED] T5507.031

[GRAPHIC] [TIFF OMITTED] T5507.032

[GRAPHIC] [TIFF OMITTED] T5507.033

[GRAPHIC] [TIFF OMITTED] T5507.034

[GRAPHIC] [TIFF OMITTED] T5507.035

[GRAPHIC] [TIFF OMITTED] T5507.001

[GRAPHIC] [TIFF OMITTED] T5507.002

[GRAPHIC] [TIFF OMITTED] T5507.003

[GRAPHIC] [TIFF OMITTED] T5507.004

[GRAPHIC] [TIFF OMITTED] T5507.005

[GRAPHIC] [TIFF OMITTED] T5507.006

[GRAPHIC] [TIFF OMITTED] T5507.007

[GRAPHIC] [TIFF OMITTED] T5507.008

[GRAPHIC] [TIFF OMITTED] T5507.009

[GRAPHIC] [TIFF OMITTED] T5507.010

[GRAPHIC] [TIFF OMITTED] T5507.011

[GRAPHIC] [TIFF OMITTED] T5507.012

[GRAPHIC] [TIFF OMITTED] T5507.013

[GRAPHIC] [TIFF OMITTED] T5507.036

[GRAPHIC] [TIFF OMITTED] T5507.037

[GRAPHIC] [TIFF OMITTED] T5507.038

[GRAPHIC] [TIFF OMITTED] T5507.039

[GRAPHIC] [TIFF OMITTED] T5507.040

[GRAPHIC] [TIFF OMITTED] T5507.041

[GRAPHIC] [TIFF OMITTED] T5507.042

[GRAPHIC] [TIFF OMITTED] T5507.043

[GRAPHIC] [TIFF OMITTED] T5507.044

[GRAPHIC] [TIFF OMITTED] T5507.045

[GRAPHIC] [TIFF OMITTED] T5507.046

[GRAPHIC] [TIFF OMITTED] T5507.053

[GRAPHIC] [TIFF OMITTED] T5507.054

[GRAPHIC] [TIFF OMITTED] T5507.055

[GRAPHIC] [TIFF OMITTED] T5507.047

[GRAPHIC] [TIFF OMITTED] T5507.048

[GRAPHIC] [TIFF OMITTED] T5507.049

[GRAPHIC] [TIFF OMITTED] T5507.050

[GRAPHIC] [TIFF OMITTED] T5507.051

[GRAPHIC] [TIFF OMITTED] T5507.052

[GRAPHIC] [TIFF OMITTED] T5507.056

[GRAPHIC] [TIFF OMITTED] T5507.057

[GRAPHIC] [TIFF OMITTED] T5507.058

[GRAPHIC] [TIFF OMITTED] T5507.059

[GRAPHIC] [TIFF OMITTED] T5507.060

[GRAPHIC] [TIFF OMITTED] T5507.061

[GRAPHIC] [TIFF OMITTED] T5507.062

[GRAPHIC] [TIFF OMITTED] T5507.063

[GRAPHIC] [TIFF OMITTED] T5507.064

[GRAPHIC] [TIFF OMITTED] T5507.065

[GRAPHIC] [TIFF OMITTED] T5507.066

[GRAPHIC] [TIFF OMITTED] T5507.067

                                 <all>

</pre></body></html>
